<html>
<title> - IMPROVING THE DEPARTMENT OF HOMELAND SECURITY'S BIOLOGICAL DETECTION AND SURVEILLANCE PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 IMPROVING THE DEPARTMENT OF HOMELAND SECURITY'S BIOLOGICAL DETECTION 
                       AND SURVEILLANCE PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2016

                               __________

                           Serial No. 114-52

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
21-524 PDF                    WASHINGTON : 2016                       
                               
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  

                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                
                                ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                   Martha McSally, Arizona, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Mark Walker, North Carolina          Bonnie Watson Coleman, New Jersey
Barry Loudermilk, Georgia            Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
           Moira Bergin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Dr. Kathryn Brinsfield, Assistant Secretary, Office of Health 
  Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Dr. Reginald Brothers, Under Secretary for Science and 
  Technology, U.S. Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................     9
Mr. Chris P. Currie, Director, Emergency Management, National 
  Preparedness and Critical Infrastructure Protection, Homeland 
  Security and Justice Team, U.S. Government Accountability 
  Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16

 
 IMPROVING THE DEPARTMENT OF HOMELAND SECURITY'S BIOLOGICAL DETECTION 
                       AND SURVEILLANCE PROGRAMS

                              ----------                              


                      Thursday, February 11, 2016

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:13 p.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Payne, and Thompson.
    Ms. McSally. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order.
    The subcommittee is meeting today to receive testimony 
regarding the Department of Homeland Security's detection and 
surveillance programs to address the bioterrorism threat.
    I now recognize myself for an opening statement.
    The Subcommittee on Emergency Preparedness, Response, and 
Communications has a long history of oversight on the issue of 
bioterrorism. So far this Congress, we have held multiple 
hearings and a Classified briefing on this threat. The threat 
is real.
    We know terrorist groups like ISIS have an interest in 
utilizing biological agents in their attacks. In fact, a little 
over a year ago, a laptop reportedly retrieved from an ISIS 
hideout in Syria contained plans for weaponizing bubonic 
plague, in a document discussing the advantages of using 
biological weapons. We now know ISIS is intent on conducting 
attacks in the United States.
    In its 2016 World-wide Threat Assessment provided earlier 
this week, the director of national intelligence noted that 
weapons of mass destruction continue to be a major threat to 
U.S. security. He remarked that biological materials and 
technologies as well as personnel with the expertise to design 
and use them move easily in the economy.
    The DNI also stated that infectious diseases continue to 
threaten our security, and that a more crowded and 
interconnected world is increasing the opportunities for human 
and animal diseases to emerge and spread globally, something we 
are seeing right now with the Zika virus.
    A bio-attack could cause illness or death in hundreds of 
thousands of people, overwhelm our public health capabilities 
and have an economic impact of over $1 trillion per incident. 
Our Nation's capability to mitigate the impacts of all types of 
biological events is a top National security priority.
    But we know that our efforts leave room for improvement. 
The Blue Ribbon Study Panel on Biodefense's report, which was 
released October 2015, highlights shortcomings of the 
Department of Homeland Security's biological surveillance and 
detection efforts through the National Biosurveillance 
Integration System, or NBIS, and the BioWatch program.
    In testimony before the full committee, Blue Ribbon co-
chair and former Secretary of Homeland Security Tom Ridge 
stated: ``DHS has made only limited progress with BioWatch and 
the National biosurveillance integration system--and at great 
expense.''
    Limited information sharing from Federal and industry 
partners has hampered the effectiveness of the National 
Biosurveillance Integration Center, or NBIC. BioWatch uses 
aging equipment, despite the fact that other agencies have 
fielded more advanced detection technology.
    He recommended that: ``Either we make these effective tools 
or we replace them.''
    The GAO also completed reviews of NBIC and BioWatch, 
containing a number of similar findings to the Blue Ribbon 
Study Panel.
    With respect to BioWatch, the review found that DHS did not 
conduct sufficient testing to determine that the technology can 
effectively meet the program's objectives, which brings us to 
today's hearing.
    In light of the threats that we face, the Department of 
Homeland Security must have biological detection and 
surveillance programs in place, which serve to enhance our 
security and provide a return on our investment. I am 
interested in hearing from Dr. Brinsfield on how the Office of 
Health Affairs, OHA, is working to address the findings of 
these reviews and chart an effective course for these programs.
    I am also interested in learning more about collaborative 
efforts between OHA and the Science and Technology Directorate 
to determine the next steps for BioWatch.
    With that in mind, the Ranking Member and I had a 
discussion with industry representatives on this very topic 
yesterday. We were concerned to hear that there has been 
limited engagement with the innovators who may have interim and 
long-term solutions to these problems. If you don't communicate 
your plans with industry, they can't plan for how they might be 
able to support you.
    These are complex problems for sure, and we must work 
collaboratively at all levels of Government and with the 
private sector to address them.
    With that, I welcome our witnesses. I look forward to 
hearing your testimony.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
    The Subcommittee on Emergency Preparedness, Response, and 
Communications has a long history of oversight on the issue of 
bioterrorism. So far this Congress, we have held multiple hearings and 
a Classified briefing on this threat.
    The threat is real. We know terrorist groups, like ISIS, have an 
interest in utilizing biological agents in their attacks. In fact, a 
little over a year ago, a laptop reportedly retrieved from an ISIS 
hideout in Syria contained plans for weaponizing bubonic plague and a 
document discussing the advantages of using biological weapons. And we 
know ISIS is intent on conducting attacks in the United States.
    In his 2016 Worldwide Threat Assessment provided earlier this week, 
the director of national intelligence noted that weapons of mass 
destruction continue to be a major threat to U.S. security. He remarked 
that biological materials and technologies, as well as personnel with 
the expertise to design and use them, move easily in the economy. The 
DNI also stated that infectious disease continues to threaten our 
security and that a more crowded and interconnected world is increasing 
the opportunities for human and animal diseases to emerge and spread 
globally--something we're seeing right now with the Zika virus.
    A bio attack could cause illness or death in hundreds of thousands 
of people, overwhelm our public health capabilities, and have an 
economic impact of over 1 trillion dollars per incident.
    Our Nation's capacity to mitigate the impacts of all types of 
biological events is a top National security priority. But, we know 
that our efforts leave room for improvement.
    The Blue Ribbon Study Panel on Biodefense's report, which was 
released in October, highlights shortcomings of the Department of 
Homeland Security's biological surveillance and detection efforts 
through the National Biosurveillance Integration System (NBIS) and the 
BioWatch Program.
    In testimony before the full committee, Blue Ribbon Co-Chair and 
former Secretary of Homeland Security Tom Ridge stated, ``DHS has made 
only limited progress with BioWatch and the National Biosurveillance 
Integration System . . . and at great expense.'' Limited information 
sharing from Federal NBIS partners has hampered the effectiveness of 
the National Biosurveillance Integration Center (NBIC), and BioWatch 
uses aging equipment, despite the fact that other agencies have fielded 
more advanced detection technology. He recommended, ``either we make 
these effective tools or we replace them.''
    The Government Accountability Office also completed reviews of NBIC 
and BioWatch, containing a number of similar findings to the Blue 
Ribbon Study Panel. With respect to BioWatch, the review found that DHS 
did not conduct sufficient testing to determine that the technology can 
effectively meet the program's objectives.
    Which brings us to today's hearing. In light of the threats we 
face, the Department of Homeland Security must have biological 
detection and surveillance programs in place, which serve to enhance 
our security and provide a return on our investment.
    I am interested in hearing from Dr. Brinsfield about how the Office 
of Health Affairs (OHA) is working to address the findings of these 
reviews and chart an effective course for these programs. I am also 
interested in learning more about collaborative efforts between OHA and 
the Science and Technology Directorate to determine next steps for 
BioWatch.
    With that in mind, the Ranking Member and I had a discussion with 
industry representatives on this very topic yesterday. We were 
concerned to hear that there has been limited engagement with the 
innovators who may have interim and long-term solutions to these 
problems. If you don't communicate your plans with industry, they can't 
plan for how they might be able to support you.
    These are complex problems and we must work collaboratively at all 
levels of Government and with our private-sector partners to address 
them.
    With that, I welcome our witnesses. I look forward to your 
testimony.

    Ms. McSally. The Chair now recognizes the gentleman from 
Mississippi, the Ranking Member of the full committee, Mr. 
Thompson, for any opening statement he may have.
    Mr. Thompson. Thank you very much, Madam Chair.
    Let me say at the beginning that Ranking Member Payne is 
actually in the House physician's office and I am kind of 
pinch-hitting for him today.
    Nonetheless, welcome, to our witnesses for this hearing.
    I would like to also thank you for holding this hearing.
    The Department of Homeland Security's signature programs in 
this mission space, BioWatch and the National Biosurveillance 
Integration Center, referred to commonly as NBIC, has 
historically struggled to meet Congress's expectations.
    This committee has conducted exhaustive oversight of the 
BioWatch program since it was transferred to the Department and 
NBIC since it was authorized with the 9/11 Act.
    Let me mention and I appreciate both Mr. Payne and Ms. 
McSally's efforts to continue those efforts.
    That said, I have grown frustrated, like many, that we seem 
to be having the same hearings over and over again. At least 
once every Congress, we ask the Department to come to the 
committee to respond to the latest criticisms of BioWatch and 
NBIC.
    In 2012, we asked about reports of false positives with the 
currently-deployed BioWatch system, a 2011 National Academy of 
Sciences report that found that current BioWatch technology 
would work in very limited circumstances, and acquisition 
challenges that ultimately proved to be Gen-3's demise.
    At the time, we were assured that the currently-deployed 
BioWatch system did work and that the Office of Health Affairs 
would work closely with the Science and Technology Directorate 
to identify new technologies to address shortcomings of the 
archaic BioWatch system.
    Two years after the Gen-3 acquisition was officially 
canceled, it is unclear whether we have made any concrete 
progress to identify new biodetection technology. Worse yet, 
last fall both the Blue Ribbon Study Panel on Biodefense and 
the Government Accountability Office released reports raising 
questions about what benefits the current BioWatch program 
provides.
    The questions raised by the study panel and GAO were many 
of the same questions raised by our Members and the National 
Academy of Science years ago. Similarly, the GAO has raised 
questions about the value of NBIC since 2009.
    While I commend the Office of Health Affairs for fully 
implementing the recommendations GAO made to improve the NBIC, 
it still appears that NBIC struggles to effectively collect, 
integrate, and analyze biosurveillance data from across the 
Federal Government to identify emerging threats.
    Despite laudable efforts, GAO reports NBIC struggles to get 
access to the information it needs to do the job. Some 
stakeholders say the products NBIC produces are not timely or 
useful.
    The Blue Ribbon Panel echoed these concerns particularly 
regarding stalled progress on identifying innovative data 
sources. These are many of the problems we heard about in 2009.
    So, Madam Chair, in the interest of time, I think they get 
the point.
    [Laughter.]
    We would like to hear from our witnesses to help us out 
with this.
    I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    The Department of Homeland Security's signature programs in this 
mission space--BioWatch and the National Biosurveillance Integration 
Center (NBIC)--have historically struggled to meet Congress' 
expectations. This committee has conducted exhaustive oversight of the 
BioWatch program since it was transferred to the Department and NBIC 
since it was authorized in the 9/11 Act. Let me also mention that I 
appreciate Mr. Payne and Ms. McSally's efforts to continue those 
efforts.
    That said, I have grown frustrated that we seem to be having the 
same hearing over and over again. At least once every Congress, we ask 
the Department to come before the committee to respond to the latest 
criticisms of BioWatch and NBIC. In 2012, we asked about reports of 
false positives with the currently-deployed BioWatch system, a 2011 
National Academy of Sciences report that found that current BioWatch 
technology would work in very limited circumstances, and acquisition 
challenges that ultimately proved to be Gen-3's demise.
    At the time, we were assured that the currently-deployed BioWatch 
system did work and that the Office of Health Affairs would work 
closely with the Science and Technology directorate to identify new 
technology to address shortcomings of the archaic BioWatch system. Two 
years after the Gen-3 acquisition was officially canceled, it is 
unclear whether we have made any concrete progress in identify new 
biodetection technology.
    Worse yet, last fall, both the Blue Ribbon Study Panel on 
Biodefense and the Government Accountability Office released reports 
raising questions about what benefit the current BioWatch program 
provides. The questions raised by the Study Panel and GAO were many of 
the same questions raised by our Members and the National Academy of 
Science years ago. Similarly, the Government Accountability Office has 
been raising questions about the value of NBIC since 2009.
    While I commend the Office of Health Affairs for fully implementing 
the recommendations GAO made to improve the NBIC, it still appears that 
NBIC struggles to effectively collect, integrate, and analyze 
biosurveillance data from across the Federal Government to identify 
emerging threats.
    Despite laudable efforts, GAO reports NBIC struggles to get access 
to the information it needs to do its job and some stakeholders say the 
produce NBIC produces are not timely or useful. The Blue Ribbon Panel 
echoed these concerns, particularly regarding stalled progress on 
identifying innovative data sources. These are many of the problems we 
heard about in 2009. I am frustrated that we are sitting here today 
having the same conversations we were having almost 4 years ago, and I 
want to understand what it will take to move the ball.
    Today, I want to learn what challenges are undermining progress. Is 
it a question of insufficient resources for these programs? Is it a 
lack of centralized leadership on biodefense issues at the Federal 
level guiding prioritization, coordination, and investments? Is it time 
to rethink the mission of these programs so they are responsive to the 
current threat environment and capability gaps?
    Help us understand the challenges you are facing, your vision for 
these programs, and what you need from Congress. I look forward to the 
testimony today, and I hope that we will hear a concrete strategy for 
making concrete improvement on programs that DHS has struggled with for 
too long.

    Ms. McSally. Thank you, Ranking Member Thompson.
    The gentlemen yields back.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                           February 11, 2016
    DHS has a critical role to play in the biodefense space. I am glad 
that Ms. McSally shares my commitment to ensuring that the Department's 
programs are responsive to the current threat environment and make 
meaningful contributions to help prevent and protect against a 
biological incident.
    I joined this committee in January 2013, and have served as Ranking 
Member on this subcommittee ever since. At that time, the Office of 
Health Affairs was conducting the ``Analysis of Alternatives'' for the 
BioWatch Gen-3 ``lab-in-a-box'' and implementing its 2012 Strategic 
Plan for the National Biosurveillance Integration Center. The Gen-3 
acquisition was ultimately canceled, questions about Gen-2 were on-
going, and we took the ``wait and see'' approach with NBIC, hoping that 
with time and a new strategy, it would successfully achieve its 
mandate.
    I find it remarkable that today I sit here with a new Subcommittee 
Chairman asking many of the same questions I was asking 3 years ago. I 
have met with both Dr. Brinsfield and Dr. Brothers privately, and 
expressed my concern about the lack of progress in identifying 
technology to replace the current BioWatch system.
    Although I have been assured that progress is under way, the Chair 
and I have met with representatives from the private sector and they 
did not share that optimism. Further, both the Blue Ribbon Study Panel 
on Biodefense and the Government Accountability Office have recently 
questioned the benefit of both NBIC and the deployed BioWatch 
technology. With respect to NBIC, the Blue Ribbon Panel acknowledged 
the challenges that OHA has experienced with respect to gaining access 
to information without an enforcement mechanism and urged OHA to 
innovate on identifying new data sources.
    GAO raised similar concerns with respect to information access and 
suggested that NBIC could further clarify its mission to ensure that 
its work added to the National biosurveillance capability. That said, I 
do not know how OHA can address these challenges or clarify its mission 
under its current budget or the reduced resources sought under the 
President's fiscal year 2017 budget request. Together, the message from 
GAO and the Blue Ribbon Study Panel is that the NBIC cannot carry on 
with a ``business as usual'' mentality. I will be interested to learn 
how NBIC has internalized this message.
    With respect to BioWatch, GAO recently found that DHS lacks a full 
understanding of the deployed system's detection capabilities. The Blue 
Ribbon Study Panel amplified the system's limitations by outlining a 
series of shortcomings, from relying on ``winds blowing in optimal 
directions,'' to its inability to distinguish normal background 
bacteria from dangerous pathogens, to its inability to detect atypical 
threats.
    Although the Department is adamant that BioWatch can achieve its 
operational objective--to detect a catastrophic biological event that 
would cause 10,000 casualties--I am not convinced that that objective 
is responsive to the current threat environment.
    Before I yield back, I would be remiss if I did not note that the 
President's fiscal year 2017 budget request proposes devastating cuts 
to terrorism preparedness grants that first responders in my district 
rely on. The budget would cut $267 million from the State Homeland 
Security Grant Program, $270 million from the Urban Area Security 
Initiative, $15 million from Transit Grants, and $7 million from Port 
Grants. It is penny-wise and pound-foolish to make such cuts even to 
these effective programs. The Federal dollars we spend yield concrete 
capabilities at the State and local level.
    Getting back to the subject at hand, I have to say that it is hard 
to justify funding for programs whose value is questioned year after 
year when essential first responder grants are being axed. I am 
committed to putting DHS's biodefense efforts on the right track, but I 
have a hard time going to bat for programs that appear to be stagnant, 
particularly in the current budget environment.

    Ms. McSally. We are pleased to have a very distinguished 
panel before us today on this important topic.
    Dr. Kathy Brinsfield serves as assistant secretary of 
health affairs and chief medical officer for the Department of 
Homeland Security and leads the DHS Office of Health Affairs. 
Dr. Brinsfield is responsible for ensuring the DHS workforce 
and the Nation are prepared for the health impacts of all 
threats, including biological and chemical terrorism and 
emerging infectious diseases.
    Prior to her appointment as assistant secretary and chief 
medical officer, she served on a detail to the National 
security staff as the director of medical preparedness policy. 
Before joining DHS, Dr. Brinsfield worked for various 
organizations, including Boston EMS, Boston Metropolitan 
Medical Response System, and the the del Valle Emergency 
Preparedness Training Institute.
    Dr. Reggie Brothers serves as under secretary for science 
and technology at the U.S. Department of Homeland Security. Dr. 
Brothers is responsible for a science and technology portfolio 
that includes basic and applied research, development, 
demonstration, testing, and evaluation.
    Prior to DHS, Dr. Brothers served as the deputy assistant 
secretary of defense for research at the Department of Defense 
where he was responsible for policy and oversight of the 
Department's science and technology programs, from basic 
research through advanced technology development.
    Chris Currie is the director of GAO's Homeland Security and 
Justice Team where he leads the agency's work on emergency 
management and National preparedness issues. In this role, he 
and his team of GAO auditors evaluate Federal efforts and 
programs to prevent, plan for, and respond to natural and man-
made disasters.
    Prior to this, Mr. Currie was acting director in the GAO's 
Defense Capabilities and Management Team where he led reviews 
of DOD programs, including those related to military housing, 
aircraft, and the U.S. counter-piracy efforts. In the decade 
since DHS was created, Mr. Currie has led numerous audits and 
assessments of DHS programs, including those related to 
transportation security, research and development of new 
technologies, and the Department's effort to test and evaluate 
large acquisition programs and technologies.
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Dr. Brinsfield, for 5 minutes.

STATEMENT OF KATHRYN BRINSFIELD, ASSISTANT SECRETARY, OFFICE OF 
      HEALTH AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. Brinsfield. Chairman McSally, Mr. Thompson and 
distinguished Members of the subcommittee, I appreciate the 
opportunity to speak to you today alongside my colleague, Dr. 
Brothers, and Mr. Currie from the Government Accountability 
Office.
    Thank you for your continued oversight on this issue and 
your commitment to strengthening our Nation's biodefense.
    I know you are familiar with the Office of Health Affairs 
and our mission and role in biodetection and biosurveillance, 
so I will focus my remarks on what we are doing to build better 
systems to detect and respond to biological events, whether 
man-made or naturally occurring.
    We worry about biological attacks and other major 
biological incidents because of how wide-reaching the impacts 
can be. Within 24 hours, an individual infected with a virulent 
contagious pathogen, introduced naturally or intentionally, 
could land on our shores and spark an outbreak with far-
reaching National or global consequences.
    As noted by the Blue Ribbon Study Panel on Biodefense, our 
ability to defend the American public is a whole-of-Government 
issue because no single Government agency or even level of 
Government has the resources and the mission to handle this 
alone.
    I continue to believe that this country must have a 
layered, early-warning capability for biodefense. Right now, 
our BioWatch program and National Biosurveillance Integration 
Center, or NBIC, serve to fill that need.
    These capabilities aim to provide us with information that 
helps decision makers track trends and detect anomalies that 
may indicate that an attack has occurred, before sick people 
start flooding our hospitals and clinics.
    BioWatch has worked over the last 7 years to reinforce the 
performance and capabilities of currently-deployed 
technologies. The deployed technologies have been tested many 
times and further verified through the quality assurance 
program. The early-warning capabilities that BioWatch provides 
allow responders and communities to make timely decisions and 
take actions to protect the American people and save lives.
    Can our capabilities go further? Yes. We acknowledge that 
even our current BioWatch technology is labor-intensive and not 
suitable for every environment in which we need to detect an 
attack.
    The Department also appreciates the work of the GAO on 
BioWatch. GAO clearly recognizes some of the unique challenges 
for this system which was rolled out with the best available 
technology in 2003 to respond to an urgent threat. So, in 
recognition of these challenges, we are looking at a suite of 
capabilities that will expand the venues into which BioWatch 
collectors can be deployed and provide more rapid detection, 
better situational awareness and improve our collective 
decision making in response to a bioterror attack.
    Dr. Brothers and I share this goal because it is important. 
Together, including our interagency partners, such as 
Department of Defense, we are assessing various technologies to 
integrate into the BioWatch system.
    In cooperation with DHS Science and Technology, we are 
exploring advanced detection technologies, such as improved DNA 
sequencing techniques intended to improve sensitivity and 
expand the range of agents of concern that BioWatch is able to 
detect.
    The Department has a plan and proposed time line to 
implement the recommendations of the most recent report. Much 
of that effort is currently under way or already complete.
    The same goes for biosurveillance. As part of our layered 
defense, the NBIC is the Nation's integrator of human health, 
animal health, and environmental data to develop a 
comprehensive understanding of the biological threat landscape 
and emerging incidents to ensure our Nation's decision makers 
have timely, accurate, and actionable information. This 
includes terrorist incidents and naturally-occurring biological 
threats.
    For example, since April 2015, NBIC has provided updates to 
Federal, State, and local officials on the evolving nature of 
the current Zika virus outbreak.
    We are cognizant the reports by GAO and the Blue Ribbon 
Panel have acknowledged that although NBIC has made progress in 
delivering daily situational awareness to our partners, we 
still have work to do to fully realize the vision of a 
comprehensive biosurveillance integration.
    NBIC will continue to advance its capacity to conduct 
biosurveillance reporting and analysis by developing new 
collaboration tools, pursuing innovative data sources and 
methods and fostering greater stakeholder engagement. One such 
example is our work with the U.S. Departments of Veterans 
Affairs and Defense for data sharing and integration, which we 
hope to leverage as a model for future interagency 
collaborations.
    I wish it was quick, easy, and cheap to improve our 
biosurveillance and biodetection capabilities. Unfortunately, 
it isn't. It is a constant balance to improve our capabilities 
in a fiscally responsible way.
    At present, our programs provide and will continue to 
provide meaningful and actionable protections for the security 
of our homeland. A key part of our system is our engagement 
with State and local partners.
    In addition to our biodetection and early-warning support, 
we continue to seek ways to support our first-responder 
communities in their preparation and response to biological 
defense. By developing initiatives like the voluntary first-
responder anthrax vaccine program, for which I thank this 
committee for its support, we improve our National 
preparedness.
    We appreciate the legislative attention this committee has 
given to these issues.
    Thank you.
    [The joint prepared statement of Dr. Brinsfield and Dr. 
Brothers follows:]
Joint Prepared Statement of Kathryn H. Brinsfield and Reginald Brothers
                           February 11, 2016
    Chairman McSally, Ranking Member Payne, and distinguished Members 
of the subcommittee, thank you for inviting us to speak with you today. 
We appreciate the opportunity to testify on Department of Homeland 
Security's biological detection and surveillance programs. We want to 
thank you for your support and commitment to strengthen our Nation's 
biodefense.
                     the changing biological threat
    In the 15 years since the U.S. anthrax attacks, we have continued 
to face not only the threat of biological attacks but also naturally-
occurring disease outbreaks (e.g., avian influenza, Ebola Virus, Zika 
Virus), a global pandemic (e.g., H1N1 influenza), and criminal acts 
using biological agents (e.g., ricin). The threats and risks posed by 
emerging and re-emerging infectious disease and the potential research, 
development, acquisition, and use of biological agents by international 
terrorist organizations, home-grown violent extremists, and rogue 
states will continue to challenge our ability to warn, prepare, and 
protect the homeland.
    The Blue Ribbon Study Panel on Biodefense's recent National 
Blueprint for Biodefense made it abundantly clear that the threat of 
both man-made and natural biological disasters has not waned and, in 
fact, continues to grow and evolve. The effects of climate change, 
global connectivity, advances in biotechnology, and increased 
instability in the Middle East, Africa, and parts of Asia increase the 
likelihood of a biological event in the homeland. Synthetic biology and 
gene editing offer the promise of great medical breakthroughs; however, 
they also offer rogue states, international terrorist organizations, 
and violent extremists similar potential to modify organisms for 
malicious purposes. In the same vein, naturally-emerging avian 
influenza outbreaks and antibiotic-resistant bacteria reflect increased 
risk to the United States. Within 24 hours, an individual infected with 
a virulent, contagious, potentially man-made pathogen can land on our 
shores and spark an outbreak with far-reaching National or global 
consequences. These risks and threats have also been highlighted 
previously in Congressional testimony from Director of National 
Intelligence James Clapper.
    In the wake of these growing threats, the Department of Homeland 
Security (DHS) remains fully engaged and proactive in attempting to 
characterize the threat, providing warning of emerging and imminent 
threats, and coordinating whole-of-Government response. During the most 
recent Ebola Virus Disease outbreak in West Africa, DHS provided 
intelligence analysis to the interagency, State and local governments, 
and first responders, and it directed research to better characterize 
the threat and fill gaps in public health and operational responses. 
Additionally, DHS coordinated and implemented enhanced screening for 
more than 38,000 international passengers at 5 airports. The Department 
continues to work with State and local governments, intelligence 
community partners, and Federal partners to provide predictive analysis 
and early warning in addition to longer-term research and development 
(R&D) that strengthens preparedness and response capabilities and 
fosters resilient communities. We must remain vigilant and innovative 
as biological threats continue to evolve and new threats emerge.
          department of homeland security's role in biodefense
    The DHS Office of Health Affairs (OHA) and the Science and 
Technology Directorate (S&T) continue to lead the Department's work 
with all biodefense stakeholders, from local to Federal partners, to 
understand and meet these threats today and to be ready for the threats 
that will emerge tomorrow. With in-house experts including physicians, 
scientists, toxicologists, veterinarians, intelligence and data 
analysts, and first responders, the Department is positioned to address 
natural and man-made biological threats in our population as well as in 
our agriculture and wildlife.
    Detection and defense against biological threats, be they acts of 
terrorism or naturally occurring, remain important mission areas for 
DHS. For large-scale biological events, knowledge as early as possible 
allows informed decisions that can save American lives. To this end, 
the Department's operational biodetection and biosurveillance programs, 
the BioWatch Program and the National Biosurveillance Integration 
Center, are critical to our Nation's biodefense. The capabilities are 
mutually reinforcing--one provides detection of selected threats at 
their onset in high-risk areas while the other provides public health 
surveillance at a broader level at later stages. Each capability is 
supported by a biodefense R&D portfolio in the Department dedicated to 
creating technology options that address identified and validated 
capability gaps. R&D helps the Department maintain a longer-range view 
and ensures operational elements are not caught off-guard by emerging 
or new trends and threats.
    The Nation's biodefense integrates numerous agencies and levels of 
government, and S&T's biodefense R&D portfolio serves the full range of 
interagency, intergovernmental stakeholders. In addition to on-going 
R&D programs with OHA, S&T's portfolio extends to stakeholders outside 
the Department including protection of livestock from foreign animal 
diseases, support for acquisition of medical countermeasures, bioassay 
and diagnostic development, biological forensics programs, and 
biological event remediation. S&T's biodefense R&D portfolio is 
grounded in coordination and close working relationships with both DHS 
and external partners.
                            biowatch program
    The BioWatch Program is the Nation's only civilian program that 
provides early warning in the event of an aerosolized biological 
attack. The program consists of planning, preparedness, exercising, 
training, and early detection capabilities. Deployed at more than 30 
major metropolitan areas throughout the country, the system is a 
collaborative effort of health professionals at all levels of 
government. The program is operated by a team comprised of field 
operators, laboratory technicians, and public health officials from 
city, county, State, and Federal organizations. Each hour gained 
through early detection and before the onset of medical symptoms, 
improves the chances that response efforts will be successful. The 
BioWatch Program has succeeded in bringing together State and local 
public health, first responders, and law enforcement personnel, along 
with locally-deployed Federal officials, resulting in communities that 
are better prepared not only for a biological attack, but also for an 
all-hazards response.
    The current system has been, and will continue to be, extensively 
tested, and the program is advancing plans and building capabilities in 
early detection and situational awareness. BioWatch builds the 
collective capabilities across all levels of government to effectively 
and rapidly mobilize in response to an attack, mitigating the impacts 
of a catastrophic bioterrorism event. The BioWatch Program is a 
critical component of our Nation's response to minimize the impacts of 
a biological attack.
    The Department appreciates the Government Accountability Office 
(GAO) report and recommendations on the path forward for the BioWatch 
Program. GAO clearly recognizes the unique challenges for this system 
which was rolled out with the best available technology in 2003 to 
respond to an urgent threat. The relevant technical capabilities 
available to adversaries have only increased since then, as 
biotechnologies have continued their global development and 
dissemination. So the need for BioWatch persists. In the past 2 years, 
the capabilities of the system have been independently tested and 
validated. Four independent tests have been conducted over the last 6 
years that have tested all components of the BioWatch system. This has 
included extensive testing of our identification assays (laboratory 
tests that detect selected biological agents), subsystem- and system-
level testing in test chambers using actual threat agents, and open-air 
testing of simulated agents in as near an operational environment as 
possible. In addition, the BioWatch Quality Assurance Program has 
analyzed over 30,400 samples to monitor operations against performance 
benchmarks and requirements. The results of these tests reinforce 
confidence in the system's ability to achieve its mission: Detecting a 
large-scale aerosol release of specific threat agents in our Nation's 
most populated areas.
    The system's capability to detect biological agents was further 
affirmed last year when BioWatch detected the subtype of Francisella 
tularensis that is pathogenic to humans during confirmed occurrences of 
that strain of Tularemia in Denver, Colorado. Though the agent was not 
disseminated by an adversary, these detections took place during a 
documented uptick in naturally-occurring disease. By analyzing 
available medical surveillance data and discussing the BioWatch 
detections through the BioWatch National Conference Call, local, State, 
and Federal officials were provided with additional data for decision 
support in responding to this occurrence of Tularemia. This shows that 
the BioWatch Program is able to detect an airborne biological agent in 
the environment.
    The BioWatch Program is more than just an environmental detection 
system. BioWatch also helps strengthen jurisdictional preparedness in 
the event of a bioterrorism event through coordinating exercises and 
drills; providing training, guidance and assessments, and standardized 
methodologies for response; and by enabling a forum for all levels of 
government to share data and information. Over 500 State and local 
partners and stakeholders representing a broad cross-section of 
Government agencies have participated in BioWatch preparedness 
activities in the last year. BioWatch has also coordinated 
environmental assessment activities, including developing initial 
environmental sampling plans for jurisdictions to help characterize an 
attack. All of the program's key elements--including response--are 
supported by a number of Federal departments and agencies, such as the 
Department of Health and Human Services (HHS) including the Centers for 
Disease Control and Prevention (CDC), Department of Defense (DOD), 
Environmental Protection Agency, and Federal Bureau of Investigation. 
BioWatch also supports major events such as Super Bowls and National 
Special Security Events (e.g., 2015 papal visit to 3 U.S. cities).
    Since 2014, BioWatch has been working with DHS S&T, DOD, and other 
Federal partners to identify technologies that would substantially 
improve BioWatch operations. These improvements are intended to advance 
the current ``detect to treat'' capability, which will enable us to 
deploy medical countermeasures before the affected population is 
symptomatic. Additionally, BioWatch and the National Biosurveillance 
Integration Center are working together to improve situational 
awareness at all levels of Government in the event of a biological 
attack.
           national biosurveillance integration center (nbic)
    Given the evolving threats that our Nation faces, both man-made and 
natural, greater coordination among Federal, State, local, Tribal, and 
territorial partners is required. NBIC is uniquely situated within DHS 
to provide a fusion of human health, animal health, and environmental 
data to develop a comprehensive understanding of the biological threat 
landscape and emerging incidents to ensure our Nation's decision makers 
have timely, accurate, and actionable information.
    Established in 2004 and transitioned to OHA in 2007, the NBIC's 
mission is to enable early warning and shared situational awareness of 
acute biological events and support better decisions through rapid 
identification, characterization, localization, and tracking for 
biological events of National significance. To accomplish this, NBIC 
monitors thousands of data sources and leverages the expertise of 14 
Federal departments and agencies, then integrates this array of 
information into reports on global and National biological incidents 
that could potentially cause economic damage, social disruption, or 
loss of life. Over 900 Federal and 1,500 State, local, Tribal, and 
territorial offices across this spectrum of human, animal, and 
environmental health and response have access to NBIC's reports and 
analysis.
    We are cognizant that reports by the GAO and the Blue Ribbon Panel 
on Biodefense have acknowledged the progress that NBIC has made 
delivering daily situational awareness to our partners, but have 
pointed out that we still have work to do to fully realize the vision 
of comprehensive biosurveillance integration. Towards this end, NBIC is 
working with the Department of Veterans Affairs on a data initiative 
that will help to create an aggregated National view of disease trends, 
while also facilitating understanding of those trends in our veteran 
population. Similarly, NBIC is working with DOD's Defense Threat 
Reduction Agency to deploy new collaboration and analytic tools that 
will enable biosurveillance analysts from across the Government to 
collaboratively examine and report on emerging biological threats. 
NBIC's efforts are also focused on biosurveillance tools and reporting 
for local officials so that they can address the biological incidents 
emerging in their own communities, while strengthening National 
surveillance as a whole. NBIC will continue to advance its capacity to 
conduct biosurveillance reporting and analysis by developing new 
collaboration tools, pursuing innovative data sources and methods, and 
fostering greater stakeholder engagement.
               a coordinated r&d approach for biodefense
    S&T's Chemical and Biological Defense Division conducts R&D across 
4 primary focus areas benefitting numerous interagency and 
intergovernmental biodefense stakeholders and end-users. Threat 
awareness R&D informs the Department of Health and Human Services' 
medical countermeasure acquisition programs for the Strategic National 
Stockpile. Surveillance R&D is examining capabilities that could 
support DHS OHA and the Department of Agriculture in improving the 
Nation's ability to quickly identify chemical and biological events 
threatening human and livestock animal populations. Detection and 
Diagnostics is supporting the CDC, Department of Agriculture, and DHS 
OHA on the development of new biological sensors for rapid detection of 
threat agent releases as well as bioassays for improved identification 
of pathogens in clinical and environmental settings. Finally, S&T's 
Response and Recovery programs help law enforcement to identify sources 
of chemical and biological attack events (forensics and attribution) 
and major metropolitan transit authorities and the Environmental 
Protection Agency to remediate and decontaminate after a biological 
attack.
    Within S&T's biodefense portfolio, one reflection of R&D serving 
the Department's biodefense mission and specific language was last 
year's establishment of the Biosurveillance Apex project. Apex projects 
represent some of the S&T's most ambitious, strategically-urgent R&D 
investments, and the Biosurveillance Apex will spur short-, medium-, 
and long-term development and delivery of technology improvements to 
these essential operational programs. The R&D community within DHS 
maintains strong links to academia, National laboratories, and other 
R&D organizations to allow rapid transition of mature technologies and 
identification of further R&D to support promising new systems. S&T 
leverages that expertise to address technical gaps and needed 
enhancements by DHS components.
    Last year, Secretary Johnson directed establishment of Integrated 
Product Teams (IPTs) calling for a central mechanism for the Department 
to identify and coordinate R&D. Specifically called for in the 
Secretary's memo was an IPT on Biological Threat to identify priority 
capability gaps in biodefense (e.g., needs for better predictive models 
and algorithms for response, decision support tools during events, 
better personnel protective equipment) and R&D efforts that address 
those gaps. The solutions developed will deliver new and improved 
capabilities, such as new bioassays for detection to our public health 
partners. The Biological Threat IPT is co-chaired by the Federal 
Emergency Management Agency and OHA and serves as a platform to jointly 
assess challenges and prioritize solutions, ultimately determining how 
we will conduct faster threat detection and response for a greater 
proportion of the population as well as predict the path and severity 
of emerging disease outbreaks.
              state, local, and first responder engagement
    Key stakeholders in all our programs are State and local partners. 
OHA engages with the Association of State and Territorial Health 
Officials, the National Association of County and City Health 
Officials, and the Institute of Medicine, to leverage established 
working groups and information-sharing mechanisms for direct engagement 
with State and local public health officials. This engagement allows 
for State and local health officials to maintain awareness of, and 
provide expertise, feedback, and support to, OHA activities, including 
the BioWatch and NBIC programs.
    OHA continues to seek ways to support the first-responder community 
in its preparation and response to biological events. One initiative we 
are developing is the First Responder Vaccine Initiative (FRVI), which 
is developing the infrastructure for an anthrax vaccination pilot to 
evaluate the feasibility of a voluntary pre-event anthrax vaccination 
program among first responders using anthrax vaccine scheduled to 
rotate out of the CDC's Strategic National Stockpile in at least 2 
States. DHS is facilitating transfer of the vaccine from CDC to the 
States.
                               conclusion
    Since the stand-up of the Department, we have worked hard to 
strengthen our Nation's biodefense. We acknowledge and appreciate GAO's 
efforts to highlight areas for improvement in the Department's 
biodefense programs. We are committed to working with our partners and 
look forward to the subcommittee's continuing help building and 
refining these robust programs. We appreciate the subcommittee for 
keeping this issue at the forefront and for your continued support to 
biodefense and homeland security.

    Ms. McSally. Thank you, Dr. Brinsfield.
    The Chair now recognizes Dr. Brothers, for 5 minutes.

STATEMENT OF REGINALD BROTHERS, UNDER SECRETARY FOR SCIENCE AND 
        TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Brothers. Chair McSally, Ranking Member Thompson, 
distinguished Members of the subcommittee, good afternoon and 
thank you for this opportunity to discuss the role the 
Department of Homeland Security and Science and Technology 
Directorate in our Nation's biodefense.
    I am grateful for the committee's long-standing interest in 
and support for the Department and directorate.
    As the Blue Ribbon Study Panel on Biodefense's National 
blueprint for biodefense recently made clear, the risk of man-
made and naturally-occurring biological events has not waned in 
the 15 years since the anthrax attacks. In that time, the 
Department has played a pivotal role in characterizing the 
biological threat, providing warning of emerging threats and 
coordinating Government response during events.
    Still, while appreciative of progress made, the blueprint 
also emphasizes opportunities for improving and streamlining 
the Federal approach to biodefense. As with input from our 
colleagues in GAO, we welcome those recommendations and look 
forward to discussing them in further detail today.
    The mission of the Science and Technology Directorate, or 
S&T, is deliver effective and innovative insight, methods, and 
solutions for the critical needs of the homeland security 
enterprise. As the research and development arm and technical 
center of gravity for the Department, S&T's portfolio extends 
across diverse homeland security mission areas, a few of which 
include borders and maritime, cyber, transportation, first 
responders, disaster resilience and, of course, biodefense.
    We work hand-in-hand with our operators and end-users to 
identify capability gaps, connect them with the right 
innovators and solutions from laboratories, small and large 
businesses, universities, and international partners.
    Last year, as part of a Unity of Effort initiative, the 
Secretary directed S&T to launch Departmental integrated 
product teams, or IPTs. These represent a formal mechanism for 
identifying technology capability gaps across the Department's 
mission areas. In the past 6 months, S&T and its operational 
partners have served 5 of these teams. Together, they have 
validated on-going research and development activities and 
prioritized project topics in IPT mission areas.
    The ultimate result of the IPT process will be improved 
coordination of DHS research and development and assurance that 
identified technology solutions address component mission 
needs.
    The biological threat IPT was 1 of 5 specifically called 
for by the Secretary and tasked with identifying priority 
capability gaps in biodefense as well as research and 
development efforts to address those gaps.
    One of S&T's most important partners in this area is Dr. 
Brinsfield and the Office of Health Affairs. Our current 
collaboration is on an enhancement effort for BioWatch. It will 
spur both near- and long-term development and delivery of 
technology improvements to essential BioWatch and National 
Biosurveillance Integration Center programs.
    Another aspect worthy of recognition is demand for 
collaboration and cooperation in biodefense work.
    Unlike many challenges the Federal Government faces that 
tend to isolate with a specific lead agency, biodefense is 
almost uniquely interagency and intergovernmental and involves 
an addition of State and local public health workers, the 
Departments of Agriculture, Defense, Health and Human Services, 
Homeland Security, and Justice.
    While the agencies have specific equities, holistic success 
against biological threats requires a cooperative, 
collaborative environment.
    Biodefense research and development by its nature also 
serves a broad group of stakeholders. In addition to co-
managing a laboratory, S&T works with USDA on programs 
dedicated to the protection of livestock from foreign animal 
diseases.
    In partnership with the intelligence community, we support 
acquisition of medical countermeasures by the Department of 
Health and Human Services as required by the Bioshield Act of 
2004.
    We partner with the Centers for Disease Control and 
Prevention on bioassay and diagnostic development, detection 
and rapid identification of bioagents during a biological 
attack.
    We jointly run biological forensics programs with the FBI 
to enable surveillance, investigation, and prosecution of 
criminal elements seeking to harm citizens.
    We work with several major city-level transit authorities 
and the EPA on remediation technology for public transportation 
systems in the event of a large-scale biological attack.
    Homeland security in this area involves much more than DHS, 
as successful research and development is determined by how 
well we work with the entire community. DHS cannot and should 
not do this alone. Protecting our Nation from a biological 
attack is a joint effort. We are working across Government with 
partners like DOD to share information, build upon successes 
and lessons learned, and leverage resources whenever possible.
    Although civilian and military missions are distinct, 
information gained and investment made in each informs and 
improves the other.
    This rich union of effort, regardless of agency or level of 
Government, calls on mission owners to do their part to protect 
citizens from biological threats. That is where S&T is focused 
in all of our research and development projects in this area.
    Thank you for your time time today and I look forward to 
your questions.
    Ms. McSally. Thank you, Dr. Brothers.
    The Chair now recognizes Mr. Currie, for 5 minutes.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, EMERGENCY MANAGEMENT, 
 NATIONAL PREPAREDNESS AND CRITICAL INFRASTRUCTURE PROTECTION, 
      HOMELAND SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman McSally and Ranking Member 
Thompson. It is an honor to be here.
    Today I would like to discuss GAO's work on some of DHS's 
most critical biosurveillance programs.
    For almost a decade, we have evaluated DHS's efforts to 
implement BioWatch and the National Biosurveillance Integration 
Center, or NBIC.
    Regarding BioWatch, this committee is well aware of the DHS 
acquisition challenges in implementing the Next Gen or Gen-3 
system, and the decision to cancel the program in 2014. 
However, without Gen-3 to replace it, new questions were raised 
about how well the current system works.
    Our report last October found that 12 years after the 
system was first deployed, DHS does not have reliable 
information about its capabilities, mainly because it was put 
in the field so quickly without performance requirements.
    We also found that because the capabilities of the system 
were not fully tested, its uncertainties and limitations are 
not fully known.
    Now, some may ask why this is important now since Gen-3 was 
canceled and the system has been in place for over a decade. It 
is important because right now DHS is considering improvements 
based on unknown capabilities of an aging system.
    The next logical question is, what do we do about it now? 
So, we made a number of recommendations that we think are 
critical to any investments in the existing or future system.
    First, we recommended that DHS not pursue upgrades to the 
system until it establishes performance requirements and tests 
against those requirements.
    No. 2, we recommended that they fully account for any 
uncertainties and limitations in the system.
    Last, that they incorporate best practices in any future 
developmental testing or upgrades to the existing or new 
system.
    Let me now switch to NBIC. Since our 2009 report, the folks 
at NBIC have implemented all of our recommendations for 
strengthening collaboration and overcoming various challenges.
    For example, they developed new products to communicate 
disease outbreaks to their Federal biosurveillance partners, 
like CDC and the Agriculture Department. However, late last 
year, we reported that persistent challenges still get in the 
way of it fully meeting the mission that you all set out for 
it.
    For example, most of the primary Federal partners told us 
that NBIC's products and activities did not always add value, 
did not provide new meaning or did not help them identify 
biological events quicker. We also found that NBIC has 
difficulty getting the data it needs because partners won't 
share it or there are restrictions to sharing it.
    These challenges are not easy to address, particularly by 
DHS or NBIC alone. We identified options for policy or 
structural changes to help NBIC better fulfill its mission. 
These options ranged all the way from repealing NBIC's statute, 
all the way to providing NBIC with additional authority to 
better fulfill its mission.
    Each option has benefits and limitations and funding 
implications and they are not easy. For example, granting NBIC 
access to more data did help them conduct additional analysis, 
but may not identify emerging threats earlier than they or 
other agencies can do now.
    I want to wrap up by making a few broader points and 
connections. BioWatch and NBIC are critical programs; however, 
they are only pieces of a larger biosurveillance enterprise 
that Dr. Brothers mentioned.
    As we and others, like the Blue Ribbon Panel, have pointed 
out, investments in these programs should be evaluated in terms 
of cost and benefit and compared to other programs across the 
Government as part of a National strategic plan.
    Also critical is using the most recent threat information 
to guide decision making about these investments. For example, 
BioWatch is intended to detect a large, airborne bioattack. 
This threat must be weighed against other threats we now face, 
such as natural disease outbreaks, like Zika and Ebola.
    Last, as you know, DHS is planning to merge OHA, pieces of 
S&T, with other parts of DHS into a new chem/bio rad nuke 
office. So, this will also impact these programs and DHS's role 
moving forward.
    This completes my statement. I would be happy to answer any 
questions you have.
    [The prepared statement of Mr. Currie follows:]
                      Statement of Chris P. Currie
                           February 11, 2016
                             gao highlights
    Highlights of GAO-16-413T, a testimony before the Subcommittee on 
Emergency Preparedness, Response, and Communications; Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    The potential threat of a naturally occurring pandemic or a 
terrorist attack with a biological weapon of mass destruction 
underscores the importance of a National biosurveillance capability--
that is, the ability to detect biological events of National 
significance to provide early warning and information to guide public 
health and emergency response. The Implementing Recommendations of the 
9/11 Commission Act of 2007 addresses this capability, in part by 
creating NBIC. The center was tasked with integrating information from 
human health, animal, plant, food, and environmental monitoring systems 
across the Federal Government, to improve the likelihood of identifying 
a biological event at an earlier stage. Similarly, DHS's BioWatch 
program aims to provide early indication of an aerosolized biological 
weapon attack.
    GAO has published a series of reports on biosurveillance efforts 
spanning more than a decade. This statement describes progress and 
challenges GAO has reported in DHS's implementation of NBIC and 
BioWatch and considerations for the future of biosurveillance efforts 
at DHS.
    This testimony is based on previous GAO reports issued from 
December 2009 through September 2015 related to biosurveillance. To 
conduct our prior work, we reviewed relevant Presidential directives, 
laws, policies, and strategic plans; and interviewed Federal, State, 
and industry officials, among others. We also analyzed key program 
documents, including test plans, test results, and modeling studies.
biosurveillance.--on-going challenges and future considerations for dhs 
                        biosurveillance efforts
What GAO Found
    Since 2009, GAO has reported on progress and challenges with 2 of 
the Department of Homeland Security's (DHS) biosurveillance efforts--
the National Biosurveillance Integration Center (NBIC) and the BioWatch 
program (designed to provide early detection of an aerosolized 
biological attack). In December 2009, GAO reported that NBIC was not 
fully equipped to carry out its mission because it lacked key 
resources--data and personnel--from its partner agencies, which may 
have been at least partially the result of collaboration challenges it 
faced. For example, some partners reported that they did not trust NBIC 
to use their information and resources appropriately, while others were 
not convinced of the value that working with NBIC provided because 
NBIC's mission was not clearly articulated. GAO recommended that NBIC 
develop a strategy for addressing barriers to collaboration and develop 
accountability mechanisms to monitor these efforts. DHS agreed, and in 
August 2012, NBIC issued the NBIC Strategic Plan, which is intended to 
provide NBIC's strategic vision, clarify the center's mission and 
purpose, and articulate the value that NBIC seeks to provide to its 
partners, among other things. In September 2015, GAO reported that 
despite NBIC's efforts to collaborate with interagency partners to 
create and issue a strategic plan that would clarify its mission and 
the various efforts to fulfill its 3 roles--analyzer, coordinator, and 
innovator--a variety of challenges remained when GAO surveyed NBIC's 
interagency partners in 2015. Notably, many of these partners continued 
to express uncertainty about the value NBIC provided. GAO identified 
options for policy or structural changes that could help NBIC better 
fulfill its biosurveillance integration mission, such as changes to 
NBIC's roles.
    Since 2012, GAO has reported that DHS has faced challenges in 
clearly justifying the need for the BioWatch program and its ability to 
reliably address that need (to detect attacks). In September 2012, GAO 
found that DHS approved a next-generation BioWatch acquisition in 
October 2009 without fully developing knowledge that would help ensure 
sound investment decision making and pursuit of optimal solutions. GAO 
recommended that before continuing the acquisition, DHS reevaluate the 
mission need and possible alternatives based on cost-benefit and risk 
information. DHS concurred and in April 2014, canceled the acquisition 
because an alternatives analysis did not confirm an overwhelming 
benefit to justify the cost. Having canceled the next generation 
acquisition, DHS continues to rely on the currently deployed BioWatch 
system for early detection of an aerosolized biological attack. 
However, in 2015, GAO found that DHS lacks reliable information about 
the current system's technical capabilities to detect a biological 
attack, in part because in the 12 years since BioWatch's initial 
deployment, DHS has not developed technical performance requirements 
for the system. GAO reported in September 2015 that DHS commissioned 
tests of the current system's technical performance characteristics, 
but without performance requirements, DHS cannot interpret the test 
results and draw conclusions about the system's ability to detect 
attacks. DHS is considering upgrades to the current system, but GAO 
recommended that DHS not pursue upgrades until it establishes technical 
performance requirements to meet a clearly defined operational 
objective and assesses the system against these performance 
requirements. DHS concurred and is working to address the 
recommendation.
    Chairman McSally, Ranking Member Payne, and Members of the 
subcommittee: I am pleased to be here today to discuss our work on the 
Department of Homeland Security's (DHS) biosurveillance efforts. 
Biosurveillance, as defined by the July 2012 National Strategy for 
Biosurveillance, is the on-going process of gathering, integrating, 
interpreting, and communicating essential information related to all-
hazards threats or disease activity affecting human, animal, or plant 
health, for the purpose of: (1) Achieving early detection and warning, 
(2) contributing to overall situational awareness of the health aspects 
of the incident, and (3) enabling better decision making at all levels.
    Threats of bioterrorism, such as anthrax attacks, and high-profile 
disease outbreaks, such as Ebola in West Africa and emerging 
arboviruses like chikungunya and zika in the Americas, highlight the 
continued need for systems that provide early detection and warning 
about biological threats.\1\ We have an on-going body of 
biosurveillance work spanning more than a decade in which we have 
examined specific surveillance programs and activities carried out by 
DHS; the Departments of Health and Human Services; Agriculture; and 
several other Federal departments and agencies.\2\
---------------------------------------------------------------------------
    \1\ Arthropod-borne viruses (arboviruses) are transmitted to humans 
primarily through the bites of infected mosquitoes and ticks.
    \2\ See, for example, GAO, Emerging Infectious Diseases: Review of 
State and Federal Disease Surveillance Efforts, GAO-04-877 (Washington, 
DC: Sept. 30, 2004), which discusses select Federal and non-Federal 
human disease surveillance in humans; GAO, Global Health: U.S. Agencies 
Support Programs to Build Overseas Capacity for Infectious Disease 
Surveillance, GAO-07-1186 (Washington, DC: Sept. 28, 2007), which 
discusses 4 key programs aimed at building overseas surveillance 
capacity for infectious diseases in humans; and GAO, Homeland Security: 
An Overall Strategy Is Needed to Strengthen Disease Surveillance in 
Livestock and Poultry, GAO-13-424 (Washington, DC: May 21, 2013), which 
discusses the Department of Agriculture's efforts to better detect and 
control new or reemerging diseases in animals.
---------------------------------------------------------------------------
    We have also identified broad, cross-cutting issues in leadership, 
coordination, and collaboration that arise from working across the 
complex interagency, intergovernmental, and intersectoral 
biosurveillance enterprise. To address these issues, in 2010 we made 
recommendations that the Homeland Security Council direct the National 
Security Council staff to identify a focal point to lead the 
development of a National biosurveillance strategy that would, among 
other things: (1) Define the scope and purpose of a National 
capability; (2) provide goals, objectives and activities, priorities, 
milestones, and performance measures; and (3) assess the costs and 
benefits and identify resource and investment needs, including 
investment priorities.\3\ In July 2012, the White House released the 
National Strategy for Biosurveillance to describe the U.S. Government's 
approach to strengthening biosurveillance, but it did not fully meet 
the intent of our prior recommendations, because it did not offer a 
mechanism to identify resource and investment needs, including 
investment priorities among various biosurveillance efforts.\4\
---------------------------------------------------------------------------
    \3\ GAO, Biosurveillance: Efforts to Develop a National 
Biosurveillance Capability Need a National Strategy and a Designated 
Leader, GAO-10-645 (Washington, DC: June 30, 2010). See also, GAO, 
Biosurveillance: Nonfederal Capabilities Should Be Considered in 
Creating a National Biosurveillance Strategy, GAO-12-55 (Washington, 
DC: Oct. 31, 2011), in which we recommended that the strategy also: (1) 
Incorporate a means to leverage existing efforts that support non-
Federal biosurveillance capabilities, (2) consider challenges that non-
Federal jurisdictions face in building and maintaining biosurveillance 
capabilities, and (3) include a framework to develop a baseline and gap 
assessment of non-Federal jurisdictions' biosurveillance capabilities.
    \4\ The National Security Council staff has since created an 
implementation plan for the National strategy. However, it is not yet 
clear the extent to which the plan has been widely shared among and 
adopted by interagency decision makers as a means to help identify 
opportunities to leverage resources and direct priorities.
---------------------------------------------------------------------------
    In 2014, a Blue Ribbon Study Panel on Biodefense was established to 
assess gaps and provide recommendations to improve U.S. biodefense. The 
panel's October 2015 final report identified several themes we have 
also highlighted in our biosurveillance work, including the lack of a 
centralized leader, no comprehensive National strategic plan, and no 
all-inclusive dedicated budget for biodefense. The panel's report 
highlights a sense of urgency to address the on-going and persistent 
biological threats--both naturally occurring, like Ebola and zika, and 
from enemies, like The Islamic State of Iraq and the Levant (also known 
as ISIL and Da'esh) who have advocated for the use of biological 
weapons.
    While consequences of a biologic event could be catastrophic, we 
have also previously reported that because the Nation cannot afford to 
protect everything against all threats, choices must be made about 
protection priorities given the risk and how to best allocate available 
resources.\5\ As we testified before this committee in 2012, without a 
National strategy that provides a framework and tool set to evaluate 
trade-offs, it remains difficult for decision makers--in both the 
Executive and Legislative branches--to help ensure that biosurveillance 
resource allocation decisions within single departments and programs 
contribute to a coherent enterprise-wide approach.\6\
---------------------------------------------------------------------------
    \5\ GAO, 21st Century Challenges: Reexamining the Base of the 
Federal Government, GAO-05-325SP (Washington, DC: Feb. 1, 2005).
    \6\ GAO, Biosurveillance: Observations on BioWatch Generation-3 and 
Other Federal Efforts, GAO-12-994T (Washington, DC, Sept. 2012).
---------------------------------------------------------------------------
    Nevertheless, challenges we have reported in 2 of DHS's specific 
biosurveillance efforts--the National Biosurveillance Integration 
Center (NBIC) and the BioWatch program--demonstrate the importance of 
following Departmental policies and employing leading management 
practices to help ensure that the mission of each program is clearly 
and purposefully defined and that subsequent investments effectively 
respond to those missions. NBIC, which was created to integrate data 
across the Federal Government with the aim of enhancing detection and 
situational awareness of biological events, has suffered from long-
standing issues related to its clarity of purpose. Likewise, the 
BioWatch program, which is designed to detect bioterrorism attacks with 
specific aerosolized pathogens, has encountered challenges that stem 
from not precisely defining the need its technologies should fill and 
how the technologies it pursued (and in some cases developed and 
deployed) responded to that need.
    Finally, DHS is currently at a crossroads for decisions regarding 
not only NBIC and BioWatch, but also where these efforts fall within 
DHS's broader Chemical, Biological, Radiological, and Nuclear (CBRNE) 
programs. In June 2015, DHS provided Congress a report summarizing its 
review of the organization, operations, and communications of its 
Chemical, Biological, Radiological, and Nuclear programs and proposed 
merging 6 CBRNE-related organizational components into 1 unit.\7\ This 
provides an opportunity for DHS to look strategically at its 
biosurveillance efforts.
---------------------------------------------------------------------------
    \7\ The Senate explanatory statement accompanying the Consolidated 
and Further Continuing Appropriations Act, 2013, directed DHS to 
conduct a review and to provide a report of the results. On December 
10, 2016, the Department of Homeland Security CBRNE Defense Act of 
2015, which would establish a CBRNE Office within DHS, was passed by 
the House of Representatives. H.R. 3875 (114th Cong.).
---------------------------------------------------------------------------
    This statement describes progress and challenges we have reported 
in DHS's implementation of NBIC and BioWatch and considerations for the 
future of these biosurveillance efforts at DHS. Our statement is based 
on our prior work issued from December 2009 through October 2015 on 
various biosurveillance efforts.\8\ The work upon which this testimony 
is based was conducted in accordance with generally accepted Government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives. 
To conduct this prior work, we reviewed relevant Presidential 
directives, laws, regulations, policies, and strategic plans; surveyed 
States; and interviewed Federal, State, and industry officials, among 
others. We also analyzed key program documents, including test plans, 
test results, and modeling studies. More information on our scope and 
methodology can be found in each of the reports cited throughout this 
statement.
---------------------------------------------------------------------------
    \8\ GAO, Biosurveillance: Developing a Collaboration Strategy Is 
Essential to Fostering Interagency Data and Resource Sharing, GAO-10-
171 (Washington, DC: Dec. 18, 2009); GAO, Biosurveillance: DHS Should 
Reevaluate Mission Need and Alternatives Before Proceeding with 
BioWatch Generation-3 Acquisition, GAO-12-810 (Washington, DC: Sept. 
10, 2012); GAO, Biosurveillance: Challenges and Options for the 
National Biosurveillance Integration Center, GAO-15-793 (Washington, 
DC: Sept. 24, 2015); GAO, Biosurveillance: DHS Should Not Pursue 
BioWatch Upgrades or Enhancements Until System Capabilities Are 
Established, GAO-16-99 (Washington, DC: Oct. 23, 2015).
---------------------------------------------------------------------------
                               background
DHS's Biosurveillance Roles and Responsibilities
    According to DHS's 2014 Quadrennial Homeland Security Review 
(QHSR), biological threats and hazards--ranging from bioterrorism to 
naturally-occurring pandemics--are a top homeland security risk. The 
QHSR acknowledges that numerous departments and agencies at the 
Federal, State, local, Tribal, and territorial levels, as well as the 
private sector, contribute to the National effort to address biological 
threats and hazards. As such, according to the QHSR, DHS aims to focus 
on those activities and responsibilities assigned to it through statute 
or Presidential directive. Among the identified activities and 
responsibilities is one that is specific to biosurveillance--
biosurveillance integration and detection--and others that can help to 
support efficient and effective biosurveillance action, such as 
information sharing and analysis, threat and risk awareness, and 
technical forensic analysis to support attribution.
NBIC
    The Implementing Recommendations of the 9/11 Commission Act of 2007 
(9/11 Commission Act) established the National Biosurveillance 
Integration Center (NBIC) within DHS.\9\ NBIC was specifically tasked 
with integrating and analyzing information from human health, animal, 
plant, food, and environmental monitoring systems across the Federal 
Government and supporting the interagency biosurveillance community. As 
defined in the July 2012 NBIC Strategic Plan, integration involves 
combining biosurveillance information from different sources and 
domains (e.g., human, animal, and plant health; food and environmental 
safety and security; and homeland security) to provide partners and 
stakeholders with a synthesized view of the information, and what it 
could mean. Primary goals of integration include creating a common 
picture or understanding of potential and on-going biological events 
and providing insights that cannot be gleaned in isolation.
---------------------------------------------------------------------------
    \9\ 6 U.S.C.  195b.
---------------------------------------------------------------------------
    The 9/11 Commission Act outlines certain requirements for NBIC. 
Drawing upon these requirements as well as the NBIC Strategic Plan, we 
identified 3 main roles that NBIC, as a Federal-level biosurveillance 
integrator, must carry out to achieve the duties and outcomes described 
by NBIC's authorizing legislation.\10\ Senior NBIC officials agreed 
that these 3 roles--analyzer, coordinator, and innovator--are 
consistent with the center's responsibilities. These roles are not 
mutually exclusive and can reinforce one other. For example, NBIC's 
efforts as an Innovator might result in the development of data that 
could enhance its role as an analyzer by providing the center with 
another dataset to review. The biosurveillance integrators' roles we 
identified:
---------------------------------------------------------------------------
    \10\ GAO-15-793.
---------------------------------------------------------------------------
  <bullet> Analyzer.--Use technological tools and subject-matter 
        expertise to develop shared situational awareness by creating 
        meaningful new insights from disparate datasets and information 
        that could not be gleaned in isolation.
  <bullet> Coordinator.--Bring together multi-disciplinary partners 
        across interagency organizations to enhance understanding of 
        new or potential biological events, such as through the 
        collaborative development of products and services.
  <bullet> Innovator.--Facilitate the development of new tools, 
        technology, and approaches to address gaps in biosurveillance 
        integration.
BioWatch
    According to Homeland Security Presidential Directive 10 (HSPD-10): 
Biodefense for the 21st Century, a National bioawareness capability 
providing early warning, detection, or recognition of a biological 
weapon attack is an essential component of biodefense.\11\ To 
contribute to this National capability, in 2003, DHS created the 
BioWatch program to provide early warning, detection, or recognition of 
a biological attack. The BioWatch program uses routine laboratory 
testing designed to detect an aerosolized biological attack for 5 
specific biological agents considered high-risk for use as biological 
weapons. When DHS was established in 2002, a perceived urgency to 
deploy useful--even if immature--technologies in the face of 
potentially catastrophic consequences catalyzed the rapid deployment of 
many technologies. DHS completed the initial deployment of BioWatch 
quickly--within 80 days of the President's announcement of the BioWatch 
program in his 2003 State of the Union Address.\12\ In 2005, DHS 
expanded BioWatch to an additional 10 jurisdictions, for a total of 
more than 30. The expanded deployment--referred to as Generation 2 
(Gen-2)--also included the addition of indoor monitoring capabilities 
in 3 high-threat jurisdictions and provided additional capacity for 
events of National significance, such as major sporting events and 
political conventions.
---------------------------------------------------------------------------
    \11\ HSPD-10: Biodefense for the 21st Century (Washington, DC, 
April 2004).
    \12\ In the initial deployment of BioWatch--known as Generation-1--
DHS deployed aerosol collectors to 20 major metropolitan areas, known 
as BioWatch jurisdictions, to monitor primarily outdoor spaces.
---------------------------------------------------------------------------
    In 2015, we reported that the BioWatch program collaborates with 
more than 30 BioWatch jurisdictions throughout the Nation to operate 
approximately 600 Gen-2 aerosol collectors. These units rely on a 
vacuum-based collection system that draws air through a filter. These 
filters are manually collected and transported to State and local 
public health laboratories for analysis. Using this manual process, a 
result can be generated from 12 to 36 hours after an agent is initially 
captured by the aerosol collection unit.
    To reduce detection time, DHS began to develop an autonomous 
detection capability in 2003 for the BioWatch program--known as 
Generation 3 (Gen-3).\13\ Envisioned as a laboratory-in-a-box, the 
autonomous detection system would automatically collect air samples, 
conduct analysis to detect the presence of biothreat agents every 4 to 
6 hours, and communicate the results to public health officials via an 
electronic network without manual intervention. By automating the 
analysis, DHS anticipated that detection time could be reduced to 6 
hours or less, making the technology more appropriate for monitoring 
indoor high-occupancy facilities such as transportation nodes and 
enabling a more rapid response to an attack. DHS also anticipated a 
reduction in operational costs by eliminating the program's daily 
manual sample retrieval and laboratory analysis. However, as we 
reported in 2015, the Gen-3 acquisition was canceled in April 2014, 
after testing difficulties and after an analysis of alternatives was 
interpreted by DHS as showing that any advantages of an autonomous 
system over the current manual system were insufficient to justify the 
cost of a full technology switch.
---------------------------------------------------------------------------
    \13\ Initially, DHS's Science & Technology Directorate, partnering 
with industry, led the development of technologies to support 
autonomous detection. DHS's Office of Health Affairs has had 
responsibility for overseeing the acquisition of this technology since 
fiscal year 2007.
---------------------------------------------------------------------------
dhs has faced challenges, some persistent, in its efforts to carry out 
                        biosurveillance programs
NBIC Has Faced Difficulty Demonstrating Value to Interagency Partners
    In December 2009, we reported that NBIC was not fully equipped to 
carry out its mission because it lacked key resources--data and 
personnel--from its partner agencies, which may have been at least 
partially the result of collaboration challenges it faced. For example, 
some partners reported that they did not trust NBIC to use their 
information and resources appropriately, while others were not 
convinced of the value that working with NBIC provided because NBIC's 
mission was not clearly articulated.
    In order to help NBIC enhance and sustain collaboration, including 
the provision of data, personnel, and other resources, in 2009, we 
recommended that NBIC develop a strategy for addressing barriers to 
collaboration and develop accountability mechanisms to monitor these 
efforts. In August 2012, NBIC issued the NBIC Strategic Plan, which is 
intended to provide NBIC's strategic vision, clarify the center's 
mission and purpose, articulate the value that NBIC seeks to provide to 
its partners, and lay the groundwork for setting interagency roles, 
responsibilities, and procedures. Further, in November 2014, NBIC 
completed its first biannual NBIC Federal Stakeholder Survey, which 
NBIC uses to assess the usefulness of its products and activities and 
to determine what improvements should be made on the basis of those 
results. We believe DHS's actions addressed the recommendations in our 
December 2009 report.
    In September 2015, we reported that NBIC had actions and activities 
underway to fulfill all 3 of the roles we identified as essential to 
its ability to carry out its mission--analyzer, coordinator, and 
integrator. For example, to fulfill its analyzer role NBIC compiled 
information to create and circulate a variety of products to support 
disease outbreak monitoring on a daily, weekly, or period basis. 
Similarly, in its coordinator role, NBIC had put in place a variety of 
procedures and protocols to convene partners on a routine basis or in 
response to specific emerging events. Finally, in its innovator role 
NBIC had efforts to conduct gap analyses, fund pilot projects that aim 
to develop new biosurveillance tools and technology (such as examining 
the use of social media data to identify health trends), sought new 
sources of data and information, and made efforts to enhance its 
internal IT system.
    Although NBIC had made efforts to collaborate with interagency 
partners to create and issue a strategic plan that would clarify its 
mission and the various efforts to fulfill its 3 roles, we reported a 
variety of challenges that remained when we surveyed NBIC's interagency 
partners for our 2015 report. Notably, many of these partners continued 
to express uncertainty about the value NBIC provided. Specifically, 10 
of 19 partners stated that NBIC's products and activities enhance their 
agencies' ability to carry out their biosurveillance roles and 
responsibilities to little or no extent, 4 responded to a moderate 
extent, and 5 responded that they did not have a basis to judge.\14\ 
Generally, partners that responded to little or no extent noted that 
NBIC products and activities do not, for example, identify trends and 
patterns or describe potential impacts of a biological event. For 
instance, one official stated that NBIC's products and activities do 
not ``connect the dots'' between dissimilar information, provide novel 
synthesis of information, or recommend possible courses of action. 
Moreover, most of the Federal partners with key roles in 
biosurveillance (8 of 11) stated that NBIC's products help their 
agencies identify biological events to little or no extent, generally 
because they already obtain such information directly from other 
Federal partners more quickly.
---------------------------------------------------------------------------
    \14\ Generally, these 5 partners stated that they did not have a 
basis to judge because they are biosurveillance information consumers 
or they considered their role in biosurveillance to be relatively 
small.
---------------------------------------------------------------------------
    We also found in 2015, as in 2009, that a variety of challenges 
limited the extent to which Federal agencies shared data and personnel 
with NBIC, as envisioned by the 9/11 Commission Act. First, data that 
NBIC could use to identify and characterize a biological event of 
National concern using statistical and analytical tools, as called for 
in the 9/11 Commission Act, are limited. Also, apart from searches of 
global news reports and other publically-available reports generated by 
National Biosurveillance Integration System (NBIS) partners,\15\ NBIC 
has been unable to secure streams of raw data from multiple domains 
across the biosurveillance enterprise that would lend themselves to 
near-time quantitative analysis that could reveal unusual patterns and 
trends.\16\
---------------------------------------------------------------------------
    \15\ The NBIS is a consortium of Federal partners that was 
established to rapidly identify and monitor biological events of 
National concern and to collect; analyze; and share human, animal, 
plant, food, and environmental biosurveillance information with NBIC.
    \16\ NBIC acknowledged in its strategic plan that the data required 
to carry out its mission as envisioned in the 9/11 Commission Act 
either do not exist or are subject to a variety of information-sharing 
challenges that make a large information technology-centered solution 
less feasible than originally imagined. Additionally, NBIC and NBIS 
partners noted that there were several kinds of data that could be 
useful for this kind of biosurveillance integration, but these data may 
not exist or may not be in a usable form, such as real-time data on 
water quality and contamination from drinking water utilities and data 
on wildlife disease, which makes it difficult to fully understand the 
dynamics of zoonotic diseases. NBIC officials also noted that other 
kinds of data are maintained in formats that make them difficult to 
analyze, such as paper health records.
---------------------------------------------------------------------------
    Moreover, we found that Few federal partners (5 of 19) reported 
that they share the data they do have with NBIC, citing legal and 
regulatory restrictions, among other reasons. Some agencies are 
reluctant to share their data with NBIC because they are unsure how the 
information will be used. For example, one official explained that the 
agency does not share some data with NBIC because sharing such 
information too broadly might have substantial implications on 
agricultural trade or public perception of safety. Officials from 
another agency noted that there is sometimes reticence to share 
information and data with components of DHS because, given the 
Department's roles in law enforcement and National security, the 
information might be shared outside of the health security community in 
a way that lacks appropriate context and perspective. Finally, other 
agencies stated that they are unable to share data for regulatory or 
legal reasons, or because appropriately protecting the data would take 
too long.\17\ Similarly, although NBIC would like to obtain liaisons 
from each of its Federal partners, only 3 of 19 partners provided NBIC 
with dedicated liaisons. Officials from one agency with key 
biosurveillance responsibilities stated that it is difficult to provide 
personnel to NBIC on a full- or part-time basis because of resource 
constraints. Further, officials from another agency noted that the lack 
of clarity about NBIC's value to its partners is a barrier to providing 
the center with detailees. We also reported in September 2015 that NBIC 
faces challenges prioritizing developmental efforts to identify and 
address needs for new biosurveillance tools. For example, partners 
noted limitations in NBIC's ability to address gaps, like limited 
resources and the difficulty in prioritizing the center's innovation 
efforts because its partners have diverse needs.
---------------------------------------------------------------------------
    \17\ For example, according to Centers for Disease Control and 
Prevention (CDC) officials, their agency receives electronic data from 
State, territorial, local, and Tribal sources for a variety of programs 
and purposes that are covered by data-use agreements that do not allow 
CDC to share the data outside the terms of those agreements and as 
allowed or required by applicable Federal laws, such as the Privacy Act 
of 1974 and the Freedom of Information Act, 5 U.S.C.  552a; 552. CDC 
officials said of the data they can share, it would take extensive, 
time-consuming work to appropriately redact the data to ensure that 
individuals may not be identified and that privacy is protected, which 
results in the release of the data being postponed to the point that 
the data are no longer actionable.
---------------------------------------------------------------------------
Multiple Structural and Policy Considerations Could Help Focus NBIC's 
        Efforts
    NBIC officials stated that the center is working to improve its 
products and its ability to contextualize the information it collects 
from open sources, and has sought partner input to do so. For example, 
beginning in late June 2015, partly on the basis of feedback the center 
received from its November 2014 Federal Stakeholder Survey, NBIC 
modified its daily Monitoring List to include an up-front summary that 
identifies the status of on-going biological events as worsening, 
improving, unchanged, or undetermined. Further, NBIC officials noted 
that the center is also working to better integrate forecasts and 
projections into its products and activities by collaborating with 
others and developing a common interagency vision for specific Federal 
capabilities and practical next steps leading to the application of 
reliable infectious disease forecasting models in decision-making 
processes.
    Nevertheless, a persistent challenge NBIC faces is skepticism on 
the part of some of the NBIS partners regarding the value of the 
Federal biosurveillance mission as well as NBIC's role in that mission. 
In our 2009 report, most of the NBIS partners we interviewed at that 
time expressed uncertainty about the value of participating in the NBIS 
or confusion about the purpose of NBIC's mission. In September 2015, 
the NBIS partners and other major stakeholders in the biosurveillance 
community acknowledged--and we agreed--that no single problem limits 
NBIC's mission to integrate biosurveillance data. Rather, over the 
years, several long-standing problems have combined to inhibit the 
achievement of this mission as envisioned in the 9/11 Commission Act. 
We identified options in our 2015 report for policy or structural 
changes that could help better fulfill the biosurveillance integration 
mission, which are summarized below. We identified these options and 
their benefits and limitations, on the basis of the roles of a Federal-
level biosurveillance integrator we identified in the 9/11 Commission 
Act, NBIC's strategic plan, and the perspectives of the NBIS partners 
obtained during our structured interviews. These options are not 
exhaustive, and some options could be implemented together or in 
part.\18\
---------------------------------------------------------------------------
    \18\ In developing these options, we did not evaluate the financial 
implications of implementing each option, to the extent they are 
knowable, but we acknowledge they are likely to result in an increase, 
decrease, or shifting of funding based on the changes described.

 TABLE 1.--BENEFITS AND CHALLENGES OF OPTIONS FOR POLICY OR STRUCTURAL CHANGES FOR THE NATIONAL BIOSURVEILLANCE
                                            INTEGRATION CENTER (NBIC)
----------------------------------------------------------------------------------------------------------------
                Option                       Description                Benefits                Challenges
----------------------------------------------------------------------------------------------------------------
Reinforce NBIC's Analyzer Role.......  Under this option, NBIC  Developing meaningful    Uncertainty in knowing
                                        would be provided with   information not          whether an event would
                                        new authorities and      otherwise available.     be detected more
                                        resources designed to   Capitalize on new data    quickly by overlaying
                                        access additional        sources and analysis     various data streams
                                        public and private       techniques.              and applying
                                        data sources and                                  statistical and
                                        statistical and                                   analytical tools to
                                        modeling tools to                                 them.
                                        develop meaningful                               There may not be a
                                        information.                                      significant amount of
                                                                                          meaningful data
                                                                                          available that is not
                                                                                          already being provided
                                                                                          to facilitate advanced
                                                                                          analytical techniques.
                                                                                         The concept of whether
                                                                                          a Federal
                                                                                          biosurveillance
                                                                                          integrator would be
                                                                                          able to identify
                                                                                          patterns or
                                                                                          connections that would
                                                                                          lead to earlier
                                                                                          warning of emerging
                                                                                          events is unproven.
                                                                                         Unknown impact of
                                                                                          earlier detection.
                                                                                         Increased costs.
Strengthen NBIC's Coordinator Role...  Under this option, NBIC  This option would        Some of these
                                        would be provided with   create clear             responsibilities
                                        greater authority for    leadership across the    overlap with
                                        coordinating the         interagency.             responsibilities that
                                        Federal                 Better institutional      have historically been
                                        biosurveillance          connection.              the purview of the
                                        enterprise.             Routine,                  National Security
                                                                 institutionalized        Council staff.
                                                                 channels to monitor     It may be difficult for
                                                                 for emerging trends      an agency at NBIC's
                                                                 and patterns.            level to successfully
                                                                Enhanced accountability   influence decision
                                                                 for implementing the     making across the
                                                                 National Strategy for    interagency.
                                                                 Biosurveillance.
Expand NBIC's Innovator Role.........  Under this option, NBIC  NBIC could foster the    Increased costs.
                                        would be provided with   development of tools    A National integrator
                                        new authorities and      and technology that      that focuses on
                                        resources to lead        benefit multiple         innovation would
                                        research and             Federal partners and     likely need to acquire
                                        development              other members of the     more expertise in
                                        investments of new       National                 research and
                                        tools and technology     Biosurveillance          development.
                                        that would address       Integration System      Focusing attention on
                                        gaps across the          (NBIS).                  this role may
                                        biosurveillance         Coordinate research and   represent a
                                        community.               development efforts.     significant mission
                                                                                          shift from the status
                                                                                          quo, and may require
                                                                                          very different sets of
                                                                                          resources and
                                                                                          procedures.
Continue to Execute the 2012 NBIC      In this option, NBIC     NBIC has made progress   NBIC will likely
 Strategic Plan.                        would continue to        in this area and may     continue to face
                                        implement the mission,   continue to do so.       challenges in
                                        goals, and objectives   Some agencies currently   obtaining all the
                                        detailed in the August   find value in NBIC's     biosurveillance data
                                        2012 NBIC Strategic      products.                it needs.
                                        Plan or subsequent                               Partners remain
                                        NBIS-approved updates.                            skeptical of NBIC's
                                                                                          value.
Repeal the NBIC Statute..............  In this option,          The cost of operating    Although Federal
                                        National                 NBIC may not be worth    partners generally
                                        biosurveillance          its benefits.            thought that NBIC's
                                        integration would not                             products and
                                        be pursued through                                activities did not
                                        NBIC.                                             provide meaningful new
                                                                                          information, they
                                                                                          largely thought that
                                                                                          the concept of having
                                                                                          a Federal entity to
                                                                                          integrate
                                                                                          biosurveillance
                                                                                          information across the
                                                                                          Federal Government was
                                                                                          important.
                                                                                         Defunding NBIC could
                                                                                          create a loss of
                                                                                          investment,
                                                                                          institutional
                                                                                          learning, and progress
                                                                                          made toward developing
                                                                                          a Federal
                                                                                          biosurveillance
                                                                                          integrator.
                                                                                         Another integrator may
                                                                                          experience similar
                                                                                          challenges.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS information. GAO-16-413T

BioWatch's Ability to Detect Attacks Uncertain Because It Lacks 
        Performance Requirements That Correspond to a Clearly Defined 
        Mission
    Since 2003, DHS has focused on acquiring an autonomous detection 
system to replace the current BioWatch Gen-2, but has faced challenges 
in clearly justifying the BioWatch program's need and ability to 
reliably address that need. In September 2012, we found that DHS 
approved the Gen-3 acquisition in October 2009 without fully developing 
critical knowledge that would help ensure sound investment decision 
making, pursuit of optimal solutions, and reliable performance, cost, 
and schedule information. Specifically, we found that DHS did not 
engage the early phases of its Acquisition Life-cycle Framework, which 
is designed to help ensure that the mission need driving the 
acquisition warrants investment of limited resources and that an 
analysis of alternatives (AoA) systematically identifies possible 
alternative solutions that could satisfy the identified need. BioWatch 
officials stated that they were aware that the Mission Needs Statement 
prepared in October 2009 did not reflect a systematic effort to justify 
a capability need, but stated that the Department directed them to 
proceed because there was already Departmental consensus around the 
solution. However, we found that the AoA prepared for the Gen-3 
acquisition did not reflect a systematic decision-making process. As 
with the Mission Needs Statement, program officials told us that they 
were advised that a comprehensive AoA would not be necessary because 
there was already Departmental consensus that autonomous detection was 
the optimal solution. Because the Gen-3 AoA did not evaluate a complete 
solution set, consider complete information on cost and benefits, and 
include a cost-benefit analysis, we concluded that it did not provide 
information on which to base trade-off decisions.
    To help ensure DHS based its acquisition decisions on reliable 
performance, cost, and schedule information developed in accordance 
with guidance and good practices, in our September 2012 report, we 
recommended that before continuing the Gen-3 acquisition, DHS 
reevaluate the mission need and possible alternatives based on cost-
benefit and risk information. DHS concurred with the recommendation and 
in 2012, DHS directed the BioWatch program to complete an updated 
AoA.\19\ In April 2014, DHS canceled the acquisition of Gen-3 because 
the AoA did not confirm an overwhelming benefit to justify the cost of 
a full technology switch to Gen-3.
---------------------------------------------------------------------------
    \19\ DHS contracted with the Institute for Defense Analyses to 
conduct the updated AoA, which they issued in December 2013.
---------------------------------------------------------------------------
    Having canceled the Gen-3 acquisition, DHS continues to rely on the 
Gen-2 system for early detection of an aerosolized biological attack. 
However, we found DHS lacks reliable information about BioWatch Gen-2's 
technical capabilities to detect a biological attack, in part, because 
in the 12 years since BioWatch's initial deployment, DHS has not 
developed technical performance requirements for Gen-2. We reported in 
2015 that BioWatch has been criticized because it was deployed quickly 
in 2003 to address a perceived urgent need, but without sufficient 
testing, validation, and evaluation of its technical capabilities.\20\ 
In 2015, we reported that DHS officials said that the system can detect 
catastrophic attacks, which they define as attacks large enough to 
cause 10,000 casualties. DHS has commissioned tests of Gen-2's 
technical performance characteristics, but DHS has not developed 
performance requirements that would enable it to interpret the test 
results and draw conclusions about the system's ability to detect 
attacks.\21\ According to DHS guidance and standard practice in testing 
and evaluation of defense systems, in order to assess Gen-2's 
capability to detect a biological attack, DHS would have to link test 
results to its conclusions about the deployed detectors' ability to 
detect attacks in BioWatch operational environments. This would 
ordinarily be done by developing and validating technical performance 
requirements based on operational objectives, but DHS has not developed 
such requirements for Gen-2.
---------------------------------------------------------------------------
    \20\ GAO-16-99. See also Institute of Medicine and National 
Research Council, BioWatch and Public Health Surveillance (Washington, 
DC: National Academies Press, 2011).
    \21\ In addition to these tests, DHS commissioned a demonstration 
of the system in an outdoor environment and conducts quality assurance 
tests on an ongoing basis. Both of these provide additional information 
about the system's capabilities; however, we do not include them in our 
list of key tests because neither was designed to produce estimates of 
key performance characteristics, including sensitivity, or to support 
conclusions about the types and sizes of attack the system can reliably 
detect.
---------------------------------------------------------------------------
    In the absence of technical performance requirements, DHS officials 
said their assertion that the system can detect catastrophic attacks is 
supported by modeling and simulation studies. However, we found none of 
these studies were designed to incorporate test results from the Gen-2 
system and comprehensively assess the system against the stated 
operational objective. The modeling and simulation studies were 
designed for purposes other than to directly and comprehensively assess 
Gen-2's operational capabilities. For example, one set of modeling and 
simulation studies, conducted by Sandia National Laboratories (Sandia) 
in collaboration with other National laboratories, did not incorporate 
information about the actual locations of Gen-2 collector units, 
because they were designed to model hypothetical BioWatch deployments 
in which collectors were placed in optimal locations. Sandia also 
analyzed ranges of hypothetical system sensitivities rather than 
incorporating the test results on the performance characteristics of 
Gen-2. Therefore, these studies drew no conclusions about the actual 
capabilities of the deployed Gen-2 system.\22\ DHS officials also 
described modeling and simulation work that used a measure of 
operational capability that does not directly support conclusions about 
the BioWatch objective of detecting attacks large enough to cause 
10,000 casualties.\23\
---------------------------------------------------------------------------
    \22\ Additionally, DHS had not prepared an analysis that combines 
the modeling and simulation studies with the specific Gen-2 test 
results to assess the system's capabilities to detect attacks.
    \23\ In general, these studies use a measure called fraction of 
population protected, or Fp. Roughly speaking, Fp represents a system's 
probability of successfully detecting simulated attacks, but calculated 
in a way that gives more weight to attacks that infect more people and 
less weight to attacks that infect fewer people.
---------------------------------------------------------------------------
    Additionally, we found that because none of the modeling and 
simulation work was designed to interpret Gen-2 test results and 
comprehensively assess the capabilities of the Gen-2 system, none of 
these studies has provided a full accounting of statistical and other 
uncertainties--meaning decision makers have no means of understanding 
the precision or confidence in what is known about system 
capabilities.\24\ Because it is not possible to test the BioWatch 
system directly by releasing live biothreat agents into the air in 
operational environments, limitations of the tests described earlier 
limit the applicability of the results and underscore the need for a 
full accounting of statistical and other uncertainties, without which 
decision makers lack a full understanding of the Gen-2 system's 
capability to detect attacks of defined types and sizes.
---------------------------------------------------------------------------
    \24\ Best practices in risk analysis and cost-benefit analysis 
require an explicit accounting of uncertainties so that decision makers 
can grasp the reliability of, and precision in, estimates to be used 
for decision making. See Morgan and Henrion, Uncertainty, OMB Circular 
A-94, and OMB Circular A-4.
---------------------------------------------------------------------------
Understanding BioWatch's Current Capabilities Could Help Inform Future 
        Biodetection Investments
    At the time DHS canceled the Gen-3 acquisition, it also announced 
that S&T will explore development and maturation of an effective and 
affordable automated aerosol biodetection capability, or other 
operational enhancements, that meet the operational requirements of the 
BioWatch system. As such, DHS officials told us they are considering 
potential improvements or upgrades to the Gen-2 system. However, 
because DHS lacks reliable information about Gen-2's technical 
capabilities, decision makers are not assured of having sufficient 
information to ensure future investments are actually addressing a 
capability gap not met by the current system. Also, because DHS lacks 
targets for the current system's performance characteristics, including 
limits of detection, that would enable conclusions about the system's 
ability to detect attacks of defined types and sizes with specified 
probabilities, it cannot ensure it has complete information to make 
decisions about upgrades or enhancements.
    In our September 2015 report, to help ensure that biosurveillance-
related funding is directed to programs that can demonstrate their 
intended capabilities, and to help ensure sufficient information is 
known about the current Gen-2 system to make informed cost-benefit 
decisions about possible upgrades and enhancements to the system, we 
recommended that DHS not pursue upgrades or enhancements to the current 
BioWatch system until it establishes technical performance requirements 
necessary for a biodetection system to meet a clearly-defined 
operational objective for the BioWatch program; assesses the Gen-2 
system against these performance requirements; and produces a full 
accounting of statistical and other uncertainties and limitations in 
what is known about the system's capability to meet its operational 
objectives. DHS concurred and is taking steps to address the 
recommendation.
    As DHS faces decisions about investing in the future of the 
BioWatch program, there are lessons to be learned from the program's 
recent attempt to acquire an autonomous detection system, Gen-3. Our 
recent work on BioWatch also evaluated DHS's efforts to test the Gen-3 
technology from 2010 through 2011 against best practices for 
developmental testing. In our 2015 report, we recommended that DHS 
incorporate the best practices we identified to help enable DHS to 
mitigate risk in future acquisitions, such as upgrades or enhancements 
to Gen-2. DHS concurred and stated its updated acquisition guidance 
largely addresses these best practices.
    Chairman McSally, Ranking Member Payne, and Members of the 
subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions you may have.

    Ms. McSally. Thank you, Mr. Currie.
    I now recognize myself for 5 minutes, for initial 
questions.
    So, I want to start with BioWatch, and I appreciate your 
testimony and all the work that has been done by all of the 
witnesses. We can all agree we need to make improvements, I 
think, to our current detection system, that we rolled out 
BioWatch in a hurry, and so that comes with limitations. 
Obviously as we look back now 12 years later, the limitations 
are real.
    As far as the archaic nature, Dr. Brinsfield, you mentioned 
the manpower intensivity of it, maybe lack of nimbleness. 
Certainly, I think we can all agree we probably want something 
that has more, newer technology, that is a little bit more 
responsive.
    With 2 years past since Gen-3 was canceled, where are we 
at? So, like, what has been going on in the last 2 years? What 
is the plan for us to be able to see? Are you trying to fix 
Gen-2 and upgrade Gen-2? Are you looking at requirements for a 
follow-on system that is Gen-4 that is maybe a long-term 
project, and then in the mean time maybe bridging the gaps with 
some off-the-shelf stuff during its final development?
    I mean, these are some of the things that we talked about 
with industry partners yesterday. But I mean, what is the 
bottom line? Where are we at and what can we expect and what 
time line for, you know, the improvement of this system?
    Dr. Brinsfield.
    Dr. Brinsfield. So, I think, if I can, I will answer that 
in 2 ways, yes and yes. We are looking both at improvements to 
the current system with our partners at S&T. I am happy to say 
that the BioWatch program has reached out to its stakeholder 
communities, the interagency, multiple cities, sat down and 
asked them on a few occasions, what is most important to you? 
What do you need to see improved for the current BioWatch 
system to really be more useful and to have greater, you know, 
ability to affect your decision making?
    To that end, a number of requirements were generated that 
have been passed and worked on with S&T. I will let Dr. 
Brothers address that.
    Then on a second point, we have also been working with S&T 
on the new IPT process and have identified timeliness of 
environmental detection and how we improve that as a longer-
term goal.
    Mr. Brothers. Sure. I think what we have done is we have 
looked at improvements in terms of 2 different time frames. We 
have got a near-term time frame, 1 to 3 years, and a longer-
term time frame, 3 to 8 years or so.
    If you look, kind-of, the chain of the way BioWatch works, 
from collection, et cetera, to the eventual laboratory 
analysis, we have broken that down into the different areas. We 
have looked at that and said, what kind of improvements can we 
do?
    Now, I agree with Mr. Currie. You know, we have to have the 
right kind of requirements before we can do the right job to 
actually figure out specifically what we want. But as you know, 
technology is changing rapidly, right? This whole idea of data 
analytics, predictive analytics, different ways of 
understanding threats, different type of bioassays, et cetera, 
has advanced tremendously.
    Therefore, what we need to do, even as we are trying to 
generate these kind of requirements that we are talking about, 
we have to understand what the art of the possible is.
    In the pursuit of that art of the possible, we are reaching 
out to industry. We fully realize that we don't have all the 
answers internally. The answer is with this incredibly creative 
S&T ecosystem, right? This is the industry, laboratories, 
academia, et cetera. We are fully cognizant of that.
    As such, we are reaching out with broad area announcements, 
requests for information, et cetera, to understand what that 
art of the possible is. Once we understand that, that is when 
we start taking that along with the kind of requirements that 
we are getting working with OHA to start understanding in this 
architecture, in this architecture we are talking about, this 
layered architecture that Dr. Brinsfield mentioned, and what 
are the right things we have to put in play.
    So, some near-term things we are looking at in terms of 
improving the equipment that we have, and then there is some 
stuff we are looking at working with industry to actually make 
a much better system.
    Ms. McSally. So, time line-wise for any of this, can we--I 
don't want to be holding my breath. So, are we expecting 
requests to us? Is there something you need from Congress or a 
report back to Congress in the next single-digit months, or are 
we talking double-digit months or single-digit years on, like, 
here is the plan for the follow-on for BioWatch?
    Dr. Brinsfield. So, I think from the incremental 
improvements I will speak to that. We are looking at a time 
line that would hopefully have us coming back to start being 
able to do the acquisition process and acquire some of those 
improvements in the next planned fiscal year, so by fiscal year 
2018.
    Ms. McSally. Okay, great. Now, when we meet with just a 
handful, it wasn't the whole industry obviously, yesterday and 
they had shared, and I want to make sure that I get this right, 
they had received some RFIs and they gave feedback. That was 
about 2 years ago, right? About 2 years ago. Then they were, 
like, well, what did you do with the information we gave back 
to you?
    So I think they explained that they really felt like there 
was some off-the-shelf technology, because technology is 
developing so rapidly, that could be deployed in the interim. 
The perfect being the enemy of the good, you know, being our 
constant challenge here where we are chasing a perfect 
solution, but taking too long and then having an inadequate 
solution for a long period of time.
    Is there something that could be deployed more rapidly, 
from your assessment, off the shelf in order to either augment 
BioWatch or start to replace it as we continue to move towards 
that longer-term solution?
    Either Dr. Brothers or Dr. Brinsfield.
    Mr. Brothers. So, let me say, right now we are trying to 
determine that. I think there is a lot of technologies out 
there. We have got expertise in-house that understands some of 
those technologies. But I think it is a mistake for us to 
choose what that is without getting a good survey of the 
landscape. So that is what we are doing right now.
    So, we have 4 to 6 RFIs that are either out or going out 
shortly. So the industry folks should be seeing those.
    Ms. McSally. Got it.
    So, fiscal year 2018, Dr. Brinsfield, I mean, so you are 
basically saying, for the next year-and-a-half we can expect 
DHS to stay with the status quo?
    Dr. Brinsfield. So, for the next year-and-a-half, we can 
expect to be able to do maybe, you know, working with our 
partners, these kind of incremental improvements, but for the 
acquisition process to truly build through and make sure we do 
it correctly, follow MD-102 and all the guidelines, that that 
is about the time to build all the pieces through to meet that 
guideline process.
    Ms. McSally. Okay.
    Dr. Brinsfield. I think one of the other challenges, if I 
can just sort of go to it, has been whether or not these 
systems can be deployed in an indoor environment. Clearly, that 
was identified strongly by the stakeholders as something that 
they want to be able to do and that sets a different set of 
problems for them.
    They want to be able to make decisions on whether to 
evacuate, you know, different kinds of decisions than you make 
on whether or not you are going to treat a large population.
    To that end, some of these RFIs are actually looking at how 
we take existing technologies, pair them together in a way that 
they can work on top of the current BioWatch detection system 
for that type of deployment.
    So, I do think that what we are going to see here, even 
though there are incremental improvements of off-the-shelf 
technologies, will be significant improvements in the usability 
of the BioWatch system.
    Ms. McSally. Great. One last question, and then I will hand 
it over to the Ranking Member here, on Bioshield, is that the 
Blue Ribbon Study Panel related the need to implement better 
military and civilian collaboration.
    Dr. Brothers, you know, you came from the DOD. So, can you 
speak to any sort of collaboration that you are doing with DOD?
    Mr. Brothers. Absolutely. Right now we are working with 
DOD's JPEO Chemical and Biological Defense, that is under JPM, 
and we are working with them, we have signed an MOU with them. 
We just spoke with them. Actually, I just spoke with them a 
couple of weeks ago.
    They have a program called Jupiter. The program Jupiter is 
really about biodefense, biosurveillance. Now, they are 
developing a number of different types of technologies that we 
are collaborating on the development of. So, I think that we 
have a very close relationship.
    Outside of that MOU, we also have a relationship in a group 
called the capabilities development working group, CWDG. That 
is chaired by myself and under secretary AT&L, where we meet to 
discuss a variety of issues. This is one of the issues we 
discuss.
    We also have collaboration through the mission executive 
council. So, there is a number of forum, as well as through the 
committee on homeland national security as well, so there are a 
number of different forums where we are co-chairing committees 
and subcommittees where we have the opportunity to collaborate 
across the agencies.
    Ms. McSally. Okay, great. Thank you.
    I want to now recognize Ranking Member Thompson for 
questions, for 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chair.
    In my opening statement, I kind of dated myself on this 
issue that, you know, we have been here before. To be honest, I 
want to make sure that I am just not hearing another hearing 
for another Congress, saying the same thing.
    So, convince me that we have changed the technology. 
Convince me that we have acquired better equipment and that we 
are getting to where Mr. Currie said we ought to be.
    Dr. Brinsfield, can you help me out with that?
    Dr. Brinsfield. So, sir, if I can use an example, in your 
opening statement you referred to what has been known as the 
false positives. I think in the past history of BioWatch, there 
were times when there were detections that were perhaps true 
detections of what the system was looking for, but weren't 
useful for public health or law enforcement agencies.
    Since then, the program has done much to improve its 
assays, change the way it does those, done quality assurance, 
so that we don't actually have those false detections anymore. 
As a matter of fact, instead what we have is a number of 
detections of low-level environmental agents that have shown to 
actually be related to human disease.
    This uptick in the disease Francisella tularensis happened 
in this past summer, so that we have actually had the system 
truly detect an environmental uptick in disease where there 
were a limited number of people who became ill and that those 
detections were worked with both the CDC, FBI, and other 
partners.
    Now, it is not a detection of a terror attack and that, you 
know, is a good thing. Surely, no detection of a biological 
agent will ever determine alone if that release was naturally 
occurring or intentional from a terror attack. That is what our 
partnership with law enforcement and the FBI is intended to do. 
But it does show that the system has progressed in its ability 
to detect and has actually had true detections in this area.
    Mr. Thompson. So, Mr. Currie, do you agree with that?
    Mr. Currie. Sir, I think one of the--I have many of the 
same questions Chairman McSally had about what is actually 
happening right now. I think there are two different issues. 
You have the system that is in place in over 30 cities and it 
has been in place for over a decade now. We have found there 
are limitations with that system and the testing has not been 
fully completed and they did not set performance requirements.
    Our concern, though, is that when we talked about some of 
these improvements, that that information and that system is 
being used as the baseline for those improvements. So, that is 
one issue.
    The second issue is on the next generation of technology, 
which is in the R&D realm. This could be things that don't even 
look like BioWatch looked. So, there is very little detail 
about what exactly the next step is, because you mentioned, 
``Has the technology gotten better?''--What is the next step?
    We are using the same technology we have been using. It is 
not clear what the next technology is going to look like at 
this point.
    Mr. Thompson. Dr. Brothers, can you help us out on this?
    Mr. Brothers. Sure. I think that we are looking at 
advanced--so looking forward, so, Mr. Currie, you are saying, 
you know, what is, kind of, next? But we are looking forward, 
in essence, is what Dr. Brinsfield is talking about, which is a 
fully-layered approach.
    The fully-layered approach involves integration of 
biosurveillance, the type of thing the NBIC does, along with 
advanced biodetection. There are a number of technologies that 
are out there that they may be agent agnostic. Maybe you are 
looking at next-generation sequencing or something like that. 
Maybe you are looking at some type of advanced mass 
spectrometry. There is a number of technologies that are out 
there that people are talking about that could be useful in 
these type of architectures.
    I think we are simultaneously looking at what these 
advanced architectures could be. I am not going to say that we 
are going to give you an exact architecture right now, but we 
know what we have to find, right? It has to be this rapid 
response network. We are actually looking at advanced IT 
infrastructures to enable this advance infrastructure.
    The point is we need to understand what is out there and 
that is what we are doing right now. We do have an existing 
system that is providing important properties. We are trying to 
improve that.
    Mr. Thompson. I understand that. But we are on the same 
horse and we need, and I am being a little--not crass, but I 
think we need to get to the next level of technology because we 
are still using that same equipment. I am not certain if we 
can.
    I understand the layered part, but we still have the same 
equipment. So, how are we going to change this?
    Mr. Brothers. So, from S&T's perspective, we are making 
sure we understand, not just technology, but we also do a good 
job of characterizing potential threats. Right? So, that is 
what we do through our NBAC and through the BTRA and these 
kinds of things. So, we understand the science of the agents or 
the pathogens, but we also understand the technologies.
    Then in terms of the requirements, that is why we are 
turning to our partners in OHA to understand what we should be 
building for the next-generation system.
    Mr. Thompson. Okay, I am going to go at another round, 
Madam Chair.
    Now, I am told that what we are doing is based on incidents 
where there is 10,000 or more. Are we doing anything on 
incidents less than 10,000?
    Dr. Brinsfield. So, it certainly raises a good question. As 
the program was initially rolled out, it was intended to detect 
incidents of 10,000 or more. As we look at our State and local 
partners and what they are asking us for, they are asking for 
inter-venues and different levels of population affected than 
the system has initially been.
    Certainly, the changing nature of the terrorist threat and 
what we need to play for is a significant piece of what we are 
going to be looking at as we roll out future requirements. To 
that end, we really want to make sure we continue to partner 
with them and hear from them where they are interested in. They 
are interested in subway systems. They are interested in sports 
venues. They are interested in a whole host of things which 
will set up ways to detect much less than potentially 10,000 
people.
    Mr. Thompson. Madam Chair, since I am the elder in the 
group, you know, we have heard this before. I am trying to get 
us down the road. So my angst in this is, when can we expect 
the next roll-out? You don't have to tell us what it looks 
like, but we just need to have some idea that we are not still 
working with 12-, 15-year-old situations when things have 
changed.
    Dr. Brinsfield. So, I can only speak to the near-term roll-
out and those improvements on the product, as you mentioned. 
Those ones, as we said, we are working through an acquisition 
process that we hope to build into the budget, that will 
provide the improvements.
    When you speak of the next stage, that is really our R&D 
problem.
    Mr. Thompson. Well, R&D?
    Mr. Brothers. So, I can't give you a time frame, you know? 
This is an exploratory process right now. I think we are 
working with OHA on the near-term, but in terms of a next-
generation system, like I said, we have set time frames for 3 
to 8 years for the longer-term improvements. I am unable to 
give you greater fidelity than that.
    Mr. Thompson. But you do understand the concern of Congress 
in this issue.
    Mr. Brothers. I absolutely under the concern. I absolutely 
understand and share your concern, absolutely.
    Mr. Thompson. Mr. Currie, can you provide some guidance on 
this?
    Mr. Currie. Well, I will try. One of my concerns about--so 
as I said, again, there are 2 issues here. There is a long-term 
R&D issue, which it is not really clear exactly what that looks 
like and that is probably natural to R&D, but then there is the 
improvements that the administration is talking about.
    My concern about the improvements is the improvements are 
based on the existing technology as far as I understand it. We 
had some concerns about the testing in the way the existing 
technology was rolled out and the uncertainties in the system. 
They have done some testing. I am not saying that is bad, it 
just hasn't been a comprehensive set of tests to tell you 
whether it does what it is supposed to do.
    So, if they are going to take the current system and they 
are going to incrementally improve it, then that has 
implications for that. That concerns us.
    I think that gets back to our recommendations. It may seem 
like we are asking folks to go back in time to set requirements 
and do the testing for a system that is almost 12 years old; 
however, if you are going to use the current system to improve, 
then it makes sense to do that.
    Mr. Thompson. Absolutely.
    I yield back, Madam Chair.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes my subcommittee Ranking Member, 
Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Madam Chair and Ranking Member.
    To follow the Ranking Member's angst, the technology, what 
rolled out as next gen, I guess, is 12, 15 years old. The 
actual technology is 50 years old, correct?
    Mr. Currie. You are referring to the laboratory component 
of the technology. The testing, yes.
    Mr. Payne. Yes. I, you know, I am just a Member of Congress 
in my second term and, you know, no stretch of the imagination, 
the experts you are, but you would think that we would have 
been able to move the marker in some manner over 50-year-old 
technology. I mean, my watch is going to be obsolete next 
month, you know, and I bought it a year ago.
    Does the Department of Defense use any of these type of 
equipment or something to watch for issues around this?
    Dr. Brinsfield. So, actually, the Department of Defense 
uses BioWatch collectors are some of its sites. If we are 
talking about the technology that is the polymerase chain 
reaction, which is the current technology they are using to 
validate the organism, that is one of the questions we will be 
asking in the RFI to see if anybody has a better technology, as 
you mentioned sequencing.
    But we have also looked in the past with the National 
Academy of Sciences at other possible technologies that could 
be used in this area, none of which had a readiness level that 
were ready to be deployed yet.
    Certainly, as, you know, the biological sciences improve, 
and they are vastly improving our ability to do things, such as 
sequencing, may come and be fast enough and readily available 
enough that it is something we could actually deploy throughout 
the country in the labs. That is, you know, part of the 
reasoning for the FBI. That is what we are hoping to find.
    Mr. Payne. Mr. Currie, would GAO know of types of equipment 
that the Department of Defense is using that could potentially 
be helpful to DHS?
    Mr. Currie. Well, I couldn't name very specific pieces of 
technology they might be able to use in the same way that 
BioWatch is being used. We do know from our work that DHS does 
coordinate with the Defense Department a lot. I will say, 
though, that technology development for homeland security 
purposes is very different than for defense or for the 
warfighter.
    Mr. Payne. Okay.
    Mr. Currie. There may be more restrictions. You have 
privacy restrictions. These things have to operate in public 
places. I think it can be challenging to do that.
    However, one of the things that we--that is why it is so 
important to follow the acquisition process and set 
requirements early on. What I mean by requirements are, is, 
what do you want that technology to do and how should it 
function in whatever environment it is supposed to function? 
You have to set that early on and then you have to test to 
those requirements. Sometimes it is not quick. You can't just 
take a piece of technology off the shelf and throw it out 
there, and that is kind-of what happened at the very beginning 
of the program.
    It is difficult. But it is a laborious process, but it is 
necessary to make sure it is going to be successful.
    Mr. Payne. Okay. Let us see, I still have time.
    Ms. McSally. Take a little more time.
    Mr. Payne. Okay.
    Dr. Brinsfield, GAO proposed several paths forward to 
improve, you know, the effectiveness of NBIC. Can you describe 
the process OHA is using to evaluate these proposals?
    Dr. Brinsfield. So, I want to really congratulate NBIC on 
getting out there and reaching its stakeholder community and 
trying to make sure they are meeting their needs.
    So, on a number of issues, one is they signed a memorandum 
of agreement with all the different departments and agencies 
that we work with on the Federal level and set up a structure 
on how we will actually govern NBIC. I have a co-chair on the 
oversight body for NBIC. It was HHS last year, this year it is 
USDA. We hope to continue to work in that manner.
    Our current partnership with USDA in chairing the oversight 
body of NBIC has led a number of great ideas in terms of how we 
will change the way we use detailees and structure that 
process.
    NBIC has also looked at changing the way that it does its 
reports and reporting. As you know, many people here get them. 
I think it is important to realize we are not trying to give 
human health information to human health agencies, we are 
trying to coordinate information and we are trying to make it 
available to people who maybe don't regularly get that type of 
information.
    We get great feedback from our partners in Commerce, in 
other types of departments, that don't day-to-day deal with 
health information. They like the new setup for the reports, 
they like the way they are set up so they are getting the 
bottom line up front and really getting the information they 
need to help them make decisions.
    In fact, when the Association of State and Territorial 
Health Officials went yesterday to meet with Energy and 
Commerce to talk about Zika, they were asked what they could do 
to help State and local public health people, and they said we 
would like better access to the NBIC reports.
    So, you know, those kind of feedback and comments really 
help us understand that we are meeting some of the outreach 
parameters that we need to do.
    Now, we know without a doubt that we need to do a better 
job at sharing data across human health, animal health, and 
environmental health. To Mr. Currie's point, there are pieces 
here we may be able to do on our own and pieces that are a 
larger Government issue and pieces which may have technology 
solutions that Dr. Brothers at S&T can really help us with. We 
are looking forward to those types of improvements.
    Mr. Payne. Mr. Currie, would you like to comment?
    Mr. Currie. Sure. I agree with Dr. Brinsfield. I mean, part 
of what we found in our work is that the Federal agencies, and 
we actually didn't go out and talk to State and locals, too, 
but the Federal agencies that aren't routinely involved in 
public health issues did find the NBIC reports useful.
    I want to make it clear that, you know, we aren't saying 
that what NBIC produces is bad. The folks over there have 
worked really hard to implement our recommendations. What we 
are saying is that its core mission, in addition to 
coordination, was to integrate biosurveillance information. 
Part of that is providing new meaning to the information that 
is out there, collecting it, analyzing it, and providing new 
meaning.
    What we heard from the primary biosurveillance partners, 
these are folks like USDA, CDC, is that that information, they 
already have it, they already understand it, and it is not new 
to them, and it really doesn't provide any new meaning.
    So, that is what we pointed out in our report. The reason 
we did not make specific recommendations to NBIC is because we 
have made many in the past, and those have been implemented to 
address these challenges, but the challenges still exist.
    Part of what we did was try to offer you all, as the 
policymakers, options to consider in moving forward.
    Mr. Payne. Okay, thank you.
    Dr. Brinsfield--oh, well, my goodness, my time is--are you 
sure? Okay. Thank you, Madam Chair.
    [Laughter.]
    Mr. Payne. Dr. Brinsfield, you are probably wishing my time 
was up.
    [Laughter.]
    Dr. Brinsfield. I enjoy coming to visit you, Mr. Payne.
    Mr. Payne. Could you give a little explanation, your 
funding request for 2017, it doesn't appear to be a request for 
new funding for NBIC to carry out, you know, the mission in 
response to the GAO report?
    Dr. Brinsfield. Sir, our funding for these programs has 
remained----
    Mr. Payne. Or the authorities.
    Dr. Brinsfield. Our funding for these programs, our funding 
request for these programs has remained level across these 
different years. As you know, you have graciously given NBIC 
extra funds in past years to do different sorts of 
demonstration projects to look at potential improvements, and 
that was greatly appreciated.
    But these funds remain level from prior years' requests.
    Mr. Payne. So, are you attempting to gain favor with my 
colleagues on the other side of the aisle by not asking for 
more funds?
    Dr. Brinsfield. I think, sir, it is a complex risk space 
and we are looking at a lot of potential threats and risks. As 
Chairman McSally is very well aware, we are also very concerned 
about our responsibilities in the chem space. We are trying to 
balance our many responsibilities in this area in what is 
really a changing-nature threat.
    Mr. Payne. I understand.
    Okay, well, Madam Chair, I will yield back at this time.
    Thank you.
    Ms. McSally. Thank you.
    Thanks. I have some more questions. I think is Congressman 
Donovan coming, do you think? Okay. Well, we will just--so I do 
want to just wrap up a little bit on BioWatch and technology 
and engagement with industry.
    My staff reminded me that one of the RFIs you guys put out 
had 10,000 responses to it. So, obviously, industry has got a 
lot to share and respond to regarding these RFIs.
    I know DHS, sometime in the near future, is doing an 
industry day related to stuff that we are dealing with with the 
visa program and all that kind of stuff.
    Have you had industry days or are you interested in 
industry days or even round tables where, you know, we are all 
sitting together and sort-of us meeting with industry yesterday 
and you today? Like, sometimes, let us all just sit down 
together and try and figure out how we can move some things 
forward faster? That includes us, whether there is new 
authorities or anything needed.
    Mr. Brothers. So, I can tell you this, that one of the 
things that we have been trying to do since I have been here, 
since 2014, been trying to do greater outreach to industry, 
quite frankly.
    One of the areas we have been trying to do greater outreach 
has been into the Silicon Valley, the Bostons, the Austins, 
those kind of areas to understand what new technologies there 
are.
    So for an example of what you are talking about, we do do 
industry days, but we are taking a somewhat nontraditional 
approach to this. Our approach has been to actually have an 
ideation event where we pose a problem to creative people, and 
then we actually do a workshop. This type of workshop is around 
principles developed by the Stanford University Design School. 
Coming out of that, then we generate a solicitation.
    We have also worked with the under secretary of management 
to try to streamline our acquisition practices so that we can 
more quickly get investment dollars to companies.
    Because as you know, many companies, unless they are used 
to doing business with the Government, they don't have a kind 
of accounting system set up and it becomes very difficult for 
them to deal with some of our acquisition practices. So, we are 
trying to speed that up, speed up both the pace at which we get 
solicitations out, speed up the pace at which we evaluate those 
proposals that we receive in, and speed up the pace where we 
actually get the investment dollars out.
    The point is that as fast as technology is changing, as I 
mentioned earlier, we need to be able to engage at that same 
tempo and to be able to quickly vet so we have fast failures 
and move on and efficiently use the taxpayers' dollars.
    Ms. McSally. Great, thanks.
    I want to now switch over to some of my questions on the 
NBIC. You know, we are always formed by our own experiences and 
I have a lot of experiences in the military of being in 
operation centers, the last of which was at AFRICOM.
    We were hoping to be more of an interagency operations 
center, right? We were a military authority, but we really 
wanted other agencies to be there, we wanted other agencies to 
share information with us, and it was painful because we didn't 
have any authority to direct them to and it was only as good as 
the information that they provided.
    It seems to me it is the same exact dynamic, you know, with 
what we are talking about with the NBIC. Which is, if you are 
directed to be coordinating, you are basically an operations 
center, you are integrating information, that is what every 
kind of operations center does, trying to provide decision-
quality information to your customers.
    But you don't have the authority to direct other agencies 
to participate. You have to beg them to or ask them to 
volunteer and participate. They are only going to do that if it 
is in their best interest and under limited resources.
    Then the information is only as good as what they are 
sharing with you. So, it is this circular, of course it is not 
useful because everybody is not participating. So you are 
wanting to do that role and that mission, but you are limited 
by, I guess, not the authority to, you know, be directing that.
    So, are there any new authorities that are required for 
NBIC to be more effective and directive of other agencies?
    I don't know if you can answer that, Dr. Brinsfield.
    You might need to answer that, Mr. Currie.
    I mean, is the issue authorities? Because again, I feel the 
pain because I know what that is like. You know, what needs to 
change so that it is--and it has to be useful. We don't need to 
direct people to do things that are not within their interests, 
because they have missions with limited resources as well.
    Mr. Currie. Absolutely. I think you have hit the nail right 
on the head. Great summary.
    You know, I think we did talk a little bit in the report 
about these options and what it would take to actually execute 
some of these options. For example, in order to get NBIC access 
to certain data, there would have to probably be laws requiring 
sharing or something would have to happen to require agencies 
to share.
    However, one of the reasons we didn't make specific 
recommendations is that that wouldn't necessarily guarantee it 
would fix all these problems. I mean, it wouldn't just sort-of 
fix everything right off the bat.
    I think one of the interesting questions that we asked the 
Federal partners, though, even given what they said about NBIC, 
was, do you think that this idea of having somebody be a 
Federal integrator for biosurveillance is a good idea? They 
said yes, somebody absolutely needs to serve in that role.
    I think the question just is, you know, who should it be? 
That is a difficult question to answer. I mean, it has been one 
could question whether moving this to another agency would fix 
the problems, maybe they would have the same exact issues 
trying to get information from the other agencies, too.
    So, it is a difficult problem, but it is one that, you 
know, it is not going away. We have been seeing this for, you 
know, over half a decade now, and I think it just needs to be 
considered.
    Ms. McSally. So, of the options that you listed, Mr. 
Currie, in the report, which would you personally recommend?
    Mr. Currie. Well, we didn't recommend anything on purpose 
because, you know, at GAO we are not the policymakers, you are. 
So, what we tried to do is just do our best to give the pros 
and cons of each, the limitations.
    The other issue is, and we didn't do an analysis on this 
because it is very difficult, but this has funding 
implications. I mean, if you are going to give additional 
authorities, then you probably have to give money to somebody 
and take it away from somebody else. That is difficult and 
challenging to do that. So, we did not come out with any one 
approach.
    Ms. McSally. It seems that, as you mentioned, some of the 
Federal agencies that are already in this space are probably 
like, you know, this report of the master of the obvious is not 
new information. But those that could benefit from it are the 
State and local, you know, individuals that are having to deal 
are the first responders, the public health officials.
    So, can you share a little bit about the--did you engage 
with them during the GAO----
    Mr. Currie. No, we did not. We had to survey over 15 
different Federal departments, so it was outside of our scope 
to actually go and talk to the State and locals. But I mean, we 
did hear from the folks at NBIC about situations where they 
provided these reports to folks in advance of special events, 
like, you know, Super Bowl and things like that.
    Ms. McSally. So, Dr. Brinsfield, can you just share the 
level of collaboration with State and local authorities?
    Dr. Brinsfield. So, we like to make sure in 2 ways that our 
reports are well-coordinated with the interagency. So, first 
off, you know, if we are sharing reports on this, we are making 
sure that CDC, HHS has looked specifically at the information 
and they are comfortable that it is relevant and exactly where 
we are. We have also worked----
    Ms. McSally. So, how long does that take? I mean, that just 
made my head hurt. I mean, you want timely information, but if 
you are coordinating amongst multiple bureaucracies, then often 
your information can be quite old.
    Dr. Brinsfield. They have really done a fantastic job at 
speeding that process up and creating products that can give us 
the brief report so we can get immediate information out and 
then more, you know, in-depth reports later. So, yes, we are 
getting information out in a regular cycle.
    The State and locals have numerous ways they can get these 
reports. They can sign up direct, they can go through the 
associations, Association of State and Territorial Health 
Officials, you know, city and county health officials. They 
also at times, during certain events, CDC has distributed the 
NBIC reports.
    Ms. McSally. Is it just to health officials, but also to, 
like, law enforcement, first responders, fire?
    Dr. Brinsfield. So, we work with different groups and we 
have opportunities for them to sign up and get these reports as 
well. Some of them find them quite useful.
    We have also worked with the Governors, the homeland 
security advisers and some of those other groups to make these 
available. As a matter of fact, there are many people here in 
this building who get these reports and also find them quite 
useful.
    Ms. McSally. Okay, great.
    So, I am assuming you were involved in the Ebola response 
then, and NBIC had a role to play there. You know, in the 
military we do AARs, after-action reviews, and then we identify 
some people called them lessons learned, I call them lessons 
identified because they usually are not learned unless they are 
implemented.
    So, did you identify or do you have a process to identify 
lessons identified? Or did you do an AAR after Ebola? How is 
that playing out as far as what you are doing with the Zika 
virus?
    Dr. Brinsfield. So, there is an on-going AAR process with 
Ebola, looking at some of these different issues. The 
information-sharing piece was not identified as a deficiency, 
it was actually considered to be something that went fairly 
well and I think will continue to do that.
    Most of it has to do with organizational structure and how 
information is shared. We certainly are participating on an 
interagency basis with Zika. As a matter of fact, NBIC first 
identified and reported on an unknown Brazilian disease in 
March 2015 and reported on Zika first in April 2015 and have 
been coordinating closely with our HHS partners.
    Ms. McSally. Okay, great.
    Ranking Member, do you have another round of questions?
    Mr. Payne. Let us see. This is for Dr. Brinsfield and Dr. 
Brothers.
    You know, as you know, the committee recently enacted 
legislation that would consolidate the activities of OHA in 
certain chem/bio activities at S&T into a new CBRNE office. At 
this point, the chem and bio research and development 
activities would remain at S&T.
    Can you describe the current working relationship between 
S&T and OHA with respect to pursuing the new biodetection 
technologies?
    Dr. Brinsfield. Yes, sir. So, currently, we co-chair the 
bio IPT. This is something we are looking to continue to do in 
the future. We are working with FEMA to develop those gaps, if 
you will, that need to be filled in the biospace.
    Mr. Brothers. Yes, I think, so, as I mentioned in my 
opening statement, we develop these IPTs as a way to 
consolidate capability gaps across the Department. One of those 
IPTs is biothreat. Dr. Brinsfield and FEMA are the co-chairs of 
the biothreat IPT.
    Through that IPT, we have already got to the point where we 
have identified 5 high-priority areas. These have to still be 
further vetted and sent to the Secretary, but we have done it. 
I have got to commend Dr. Brinsfield for just the good work on 
this IPT, because we have got to these capability gaps we 
haven't had before.
    These will then be used as a way to drive our research 
investment in those gap areas, try to close those gaps.
    Mr. Payne. Okay. In light, you know, of how those things 
are going, do you anticipate chem/bio research and development 
staying at S&T or eventually moving over to the new office?
    Mr. Brothers. So, I think there has been a lot of 
discussion about this. Questions have come up of, what are the 
best models for R&D? I think in a number of people's 
estimation, and mine as well, if you look objectively at it, a 
lot of the advances in technology these days, the innovation 
that people talk about, come about because of the convergence 
of ideas.
    So, for example, MIT has an institute called the 
Convergence Institute. What they do is they look at the 
convergence of engineering and biology and physics and 
mathematics. They are saying they are putting people in those 
different areas of disciples in one place. What research has 
shown is that when you put people of disciplines in one place, 
you make a critical mass of ideas of a diverse set of ideas 
across disciplines. So what you end up with is a greater result 
than you could get than if you just had these individuals in 
isolation.
    So, here is an example. If you look at some of the 
advancements that have been made in the biological sciences 
recently, in genomics and proteomics and these kinds of things, 
it really has to do with advancements in data analytics, which 
is mathematics and computer science.
    So, if you didn't have people in mathematics and computer 
science co-located with people in biology, they wouldn't know 
about these kind of problems to solve. What it comes down to is 
creative people like to solve hard end-point problems, but they 
have to understand what these problems are.
    So, it is important to put them into environments of 
diverse creativity. When you do that, they find out problems 
they never had before.
    So, now, if you keep chem/bio in an environment where you 
have other types of research and development going on, where 
you have other types of problems being addressed, you start 
getting a cross-pollinization that is a very powerful influence 
to innovation.
    Mr. Payne. Okay.
    Mr. Currie, along that line, you know, the committee just 
passed the legislation authorizing the consolidation. I 
understand DHS has begun a review of the consolidation 
proposal. Can you give us an overview of your preliminary 
findings?
    Mr. Currie. Well, sir, we are actually doing that work for 
Mr. Thompson and you. We are right in the middle of that 
review, so we don't have any final results of that yet.
    However, we have been watching current events. For instance 
I just took a look at the budget request that came out for the 
new office and it looks like I had the same questions about: 
Are there going to be any changes in these programs in the new 
office? It looks like there is not, they were just simply 
merged together.
    But quite frankly, there are not a lot of detailed plans 
right now about the specifics of the reorganization. Part of 
that, DHS has told us, is because they are waiting on the 
legislation to be final and passed, still got to go through the 
Senate.
    So, they are sort of on hold according to them right now, 
until they get legislation to move forward on that.
    Mr. Payne. Okay, thank you.
    In the interest of time, I will yield back, Madam Chair.
    Ms. McSally. Thank you.
    I just have one final question, Dr. Brothers, about FEMA 
co-chairing the biological threat IPT. FEMA's a response 
organization. I didn't think they were much involved in R&D and 
technology, per se. I mean, they obviously need to respond to 
crises.
    So, can you just talk a little about what their role is and 
kind-of how they ended up there?
    Mr. Brothers. I can. I appreciate the question actually. 
So, one of the things I firmly believe in is what is called 
user-producer innovation. What that is is when you get the 
actual stakeholders, the people who are on the ground, whether 
it be FEMA or Customs and Border Protection or Coast Guard, 
involved in the creative process.
    Again, research has borne this to be true.
    Ms. McSally. Got it.
    Mr. Brothers. When you get the users involved in the 
creative process, you get a better result more efficiently and 
effectively.
    Ms. McSally. Got it. Okay. Great, thank you.
    All right. Well, I want to thank all of our witnesses for 
your valuable testimony today, and Members for their questions.
    Members of the subcommittee may have additional questions 
for the witnesses. I will ask you to respond to these in 
writing.
    Pursuant to the committee Rule 7(e), the hearing record 
will be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
